<html>
<title> - SMOKELESS TOBACCO: IMPACT ON THE HEALTH OF OUR NATION'S YOUTH AND USE IN MAJOR LEAGUE BASEBALL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 SMOKELESS TOBACCO: IMPACT ON THE HEALTH OF OUR NATION'S YOUTH AND USE 
                        IN MAJOR LEAGUE BASEBALL

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON HEALTH

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2010

                               __________

                           Serial No. 111-110


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov


                  U.S. GOVERNMENT PRINTING OFFICE
76-022                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                 HENRY A. WAXMAN, California, Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
CHARLES A. GONZALEZ, Texas           JOHN SULLIVAN, Oklahoma
JAY INSLEE, Washington               TIM MURPHY, Pennsylvania
TAMMY BALDWIN, Wisconsin             MICHAEL C. BURGESS, Texas
MIKE ROSS, Arkansas                  MARSHA BLACKBURN, Tennessee
ANTHONY D. WEINER, New York          PHIL GINGREY, Georgia
JIM MATHESON, Utah                   STEVE SCALISE, Louisiana
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont
                         Subcommittee on Health

                FRANK PALLONE, Jr., New Jersey, Chairman
JOHN D. DINGELL, Michigan            NATHAN DEAL, Georgia,
BART GORDON, Tennessee                   Ranking Member
ANNA G. ESHOO, California            RALPH M. HALL, Texas
ELIOT L. ENGEL, New York             BARBARA CUBIN, Wyoming
GENE GREEN, Texas                    JOHN B. SHADEGG, Arizona
DIANA DeGETTE, Colorado              STEVE BUYER, Indiana
LOIS CAPPS, California               JOSEPH R. PITTS, Pennsylvania
JANICE D. SCHAKOWSKY, Illinois       MARY BONO MACK, California
TAMMY BALDWIN, Wisconsin             MIKE FERGUSON, New Jersey
MIKE ROSS, Arkansas                  MIKE ROGERS, Michigan
ANTHONY D. WEINER, New York          SUE WILKINS MYRICK, North Carolina
JIM MATHESON, Utah                   JOHN SULLIVAN, Oklahoma
JANE HARMAN, California              TIM MURPHY, Pennsylvania
CHARLES A. GONZALEZ, Texas           MICHAEL C. BURGESS, Texas
JOHN BARROW, Georgia
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
BETTY SUTTON, Ohio
BRUCE L. BRALEY, Iowa
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     1
    Prepared statement...........................................     3
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     8
    Prepared statement...........................................    10
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................    17
    Prepared statement...........................................    19
Hon. Ed Whitfield, a Representative in Congress from the 
  Commonwealth of Kentucky, opening statement....................    25
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................    26
Hon. Steve Buyer, a Representative in Congress from the State of 
  Indiana, opening statement.....................................    26
Hon. Eliot L. Engel, a Representative in Congress from the State 
  of New York, opening statement.................................    28
Hon. Phil Gingrey, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    29
Hon. Diana DeGette, a Representative in Congress from the State 
  of Colorado, opening statement.................................    30
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    31
Hon. Lois Capps, a Representative in Congress from the State of 
  California, opening statement..................................    32
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................    33
    Prepared statement...........................................    35
Hon. Donna M. Christensen, a Representative in Congress from the 
  Virgin Islands, opening statement..............................    41
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    41
Hon. Gene Green, a Representative in Congress from the State of 
  Texas, opening statement.......................................    42

                               Witnesses

Terry Pechacek, Ph.D., Associate Director for Science, Office on 
  Smoking and Health, Centers for Disease Control and Prevention.    44
    Prepared statement...........................................    47
    Answers to submitted questions...............................   196
Deborah Winn, Ph.D., Deputy Director of the Division of Cancer 
  Control and Population Sciences, National Cancer Institute.....    58
    Prepared statement...........................................    61
    Answers to submitted questions...............................   216
Gruen Von Behrens, Stewardson, Illinois..........................    83
    Prepared statement...........................................    86
Robert D. Manfred, Jr., Executive Vice President, Labor Relations 
  and Human Resources, Major League Baseball.....................    89
    Prepared statement...........................................    91
David Prouty, J.D., Chief Labor Counsel, Major League Baseball 
  Players Association............................................    97
    Prepared statement...........................................    99
Joseph Henry ``Joe'' Garagiola, Sr., Major League Baseball 
  Announcer, Former Major League Baseball Player.................   106
    Prepared statement...........................................   111
Gregory Connolly, M.P.H., D.M.D., Professor of the Practice of 
  Public Health, Harvard University..............................   114
    Prepared statement...........................................   116

                           Submitted material

Statement of Dr. Cheryl Healton, President of Legacy, submitted 
  by Ms. Capps...................................................   141
Statement of the American Association for Cancer Research, 
  submitted by Ms. Capps.........................................   143
Article entitled, ``Under the Floorboards,'' by the National 
  Association of Convenience Stores, submitted by Mr. Whitfield..   148
Article entitled, ``Sex, drugs and BlackBerrys,'' in The 
  Washington Times,'' submitted by Mr. Whitfield.................   153
Report entitled, ``The Strategic Dialogue on Tobacco Harm 
  Reduction: A Vision and Blueprint for Action in the United 
  States,'' submitted by Mr. Buyer...............................   154


 SMOKELESS TOBACCO: IMPACT ON THE HEALTH OF OUR NATION'S YOUTH AND USE 
                        IN MAJOR LEAGUE BASEBALL

                              ----------                              


                       WEDNESDAY, APRIL 14, 2010

                  House of Representatives,
                            Subcommittee on Health,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Frank 
Pallone, Jr. (Chairman of the Subcommittee) presiding.
    Members present: Representatives Pallone, Eshoo, Engel, 
Green, DeGette, Capps, Schakowsky, Matheson, Barrow, 
Christensen, Sarbanes, Waxman (ex officio), Shimkus, Whitfield, 
Buyer, Blackburn, Gingrey and Barton (ex officio).
    Staff present: Brian Cohen, Counsel; Alvin Banks, Special 
Assistant; Mitchell Smiley, Special Assistant; Brandon Clark, 
Minority Professional Staff; Clay Alspach, Minority Counsel, 
Health; Ryan Long, Minority Chief Counsel, Health, and Aarti 
Shah, Minority Counsel, Health.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I call the meeting to order.
    Today the subcommittee is having a hearing on the 
prevalence--well, I should say the title of it is ``Smokeless 
Tobacco: Impact on the Health of Our Nation's Youth and Use in 
Major League Baseball,'' and I will recognize myself for an 
opening statement.
    The subcommittee is examining the prevalence of smokeless 
tobacco products, diseases linked to the use of these products 
and the correlation between smokeless tobacco use by youth and 
Major League Baseball players. This is an important issue of 
longstanding interest to this committee, and it is my hope we 
can continue to raise awareness about the dangers of smokeless 
tobacco and shape future discussions both in Congress and in 
Major League Baseball.
    There are various names for smokeless tobacco. I have to 
say, I haven't even heard of all of them. It is called spit 
tobacco, chewing tobacco, chew, chaw, dip, plug and probably 
many other things unknown to us in this room. But in all forms, 
the tobacco sits in the mouth while the user sucks on the 
tobacco juices, spitting off when they get rid of the saliva 
that builds up, allowing nicotine to be absorbed into the 
bloodstream without even swallowing. But no matter what name 
you call it, its use is clearly dangerous to your health.
    In the United States, both smoking and smokeless tobacco 
has long been associated with baseball. In the early days of 
the 1900s, baseball players chewed it to keep their mouths 
moist on dry and dusty fields or they would spit it into their 
gloves to soften up the leather and even use it to prepare the 
notorious spitball. Then during the 1950s, smoking tobacco 
became the product of choice. In fact, when baseball games were 
first broadcast on TV, cigarette ads became prominent features. 
Smoking was such a part of Major League Baseball that fan 
loyalty in New York could be identified merely by what 
cigarette brand an individual smoked.
    In the 1970s, things shifted again as the public became 
aware of the dangers of smoking and chewing tobacco crept back 
into baseball. During that time, the smokeless tobacco industry 
used celebrity baseball players as models in their 
advertisements, sent free samples to clubhouses in the major 
leagues, minor leagues and colleges, and ramped up efforts to 
reach a more youthful audience. As a result, sales rose by 55 
percent between 1978 and 1985. Since then, smokeless tobacco 
use by baseball players appears on TV screens across the United 
States 7 months out of the year. It doesn't seem too much of a 
stretch to consider that kids associate tobacco use as part of 
the game, and perhaps even believe that it is part of the game 
that enhances an athlete's performance. I could easily imagine 
a child thinking well, last night Yankee Nick Swisher hit a 
home run with a wad of chew in his cheek, maybe I can do that 
too. And the hero phenomenon is a powerful mania that can have 
profound effects on our children.
    My own concern is that smokeless tobacco use in baseball 
presents a public health risk that extends beyond the baseball 
players themselves. Millions of teenagers and young adults in 
the United States use smokeless tobacco. The most recent survey 
results indicate that over 13 percent of high school boys and 
over 2 percent of high school girls currently use smokeless 
tobacco products. In fact, surveys by the Centers for Disease 
Control and Prevention have found that among high school boys, 
usage rates of smokeless tobacco increased by 22 percent 
between 2003 and 2007.
    Now, we all know that tobacco use causes cancer no matter 
how it is absorbed by the body. Smokeless tobacco is not a safe 
alternative to smoking, and I am worried that message is not 
reaching the youth of our country. A 2008 study by the World 
Health Organization's International Agency for Research on 
Cancer concluded that smokeless tobacco users have an 80 
percent higher risk of developing oral cancer and a 60 percent 
higher risk of developing pancreatic and esophageal cancer, and 
despite bans of smokeless tobacco in college and the minor 
leagues, there is no ban on it in Major League Baseball.
    So I look forward to exploring the reasons behind this 
exception. I am also anxious to hear from our witnesses about 
their recommendations on how Congress can better address this 
public health issue, and I would like to thank all of our 
witnesses for being here today.
    [The prepared statement of Mr. Pallone follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.001
    
    [GRAPHIC] [TIFF OMITTED] T6022A.002
    
    [GRAPHIC] [TIFF OMITTED] T6022A.003
    
    [GRAPHIC] [TIFF OMITTED] T6022A.004
    
    [GRAPHIC] [TIFF OMITTED] T6022A.005
    
    Mr. Pallone. I will recognize the gentleman from Illinois, 
Mr. Shimkus, for the purpose of making his opening statement.
    Mr. Shimkus. Thank you, Mr. Chairman. I ask unanimous 
consent that my full statement be submitted into the record.
    Mr. Pallone. Without objection, so ordered.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. And then I will just briefly summarize. First 
of all, I want to welcome Gruen Von Behrens, who is from my 
district. He is a young man who will be testifying about the 
damages of smokeless tobacco, and I appreciate his testimony 
and his advocacy. Tobacco use is bad. I think we all know that 
in America today. We need to continue to tell the message.
    As a young kid who wanted to be a baseball player my whole 
life, of course we get to do that still here in Washington with 
the Congressional game, but athletes are role models to 
somebody, and professional baseball has to understand that they 
are a role model to the next generation of kids, and we want to 
encourage that good leadership by example style.
    I also want to mention and welcome Joe to the committee 
room. I am a St. Louis area Member of Congress residing in 
Collinsville, so as a St. Louis boy, we want to welcome you to 
the committee. I still remember fondly throughout Major League 
Baseball but especially in his hometown of St. Louis, Missouri.
    We had a master settlement with the tobacco companies that 
should have paid in $206 billion over 25 years. The Government 
Accountability Office states that only 30 percent of the 
settlement funds went to health care. Travesty number one. Only 
3.5 percent of the funds went to tobacco control like smoking 
cessation and other educational programs. So when money was 
provided in a settlement to the States to do what we are 
talking about today, government didn't do their job. Government 
always overpromises and we always underdeliver, and the master 
settlement is a perfect example of not delivering on a 
settlement with the tobacco companies.
    We have a lot of issues here to face in health care, the 
recently passed health care bill, 3,000 pages. There are 
already fixes that need to be done, whether it is preexisting 
conditions for kids left out until 2014, whether it is the 
doctor fix, which still hasn't been done which cuts physician 
payments starting this month. It is going to be extended maybe 
a month. Can you imagine running a business on calculations of 
income on a month-to-month basis? That is what we should be 
dealing with our time today, addressing the health care needs 
of the country, applauding the work--I am not suggesting that 
using the bully pulpit to continue to say that tobacco use is 
not, I am not saying that is not a good use of time. I think 
when we are in an economy that people are calling the Great 
Recession and we are looking at ways to create and expand jobs, 
government underfunding health care delivery in this country or 
taking away Medicare Advantage from seniors or cutting $500 
billion from Medicare, there is probably a more critical use of 
our time.
    With that, Mr. Chairman, I yield back my time.
    [The prepared statement of Mr. Shimkus follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.006
    
    [GRAPHIC] [TIFF OMITTED] T6022A.007
    
    [GRAPHIC] [TIFF OMITTED] T6022A.008
    
    [GRAPHIC] [TIFF OMITTED] T6022A.009
    
    [GRAPHIC] [TIFF OMITTED] T6022A.010
    
    [GRAPHIC] [TIFF OMITTED] T6022A.011
    
    [GRAPHIC] [TIFF OMITTED] T6022A.012
    
    Mr. Pallone. Chairman Waxman.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Mr. Chairman.
    Last year, we passed a law out of this committee that 
finally was signed by the President, the Family Smoking 
Prevention and Tobacco Control Act, and it grants FDA authority 
to regulate content, advertising and marketing of tobacco 
products in order to protect the public health. This 
legislation marked a critical step in a long history of efforts 
to reduce tobacco use by teens, and we have seen progress. Teen 
smoking rates are down, and while we still have a long way to 
go, at least that trend is moving in the right direction.
    But there is one exception to this improvement, that is 
smokeless tobacco. With smokeless tobacco, the trends are 
moving in the wrong direction, and the tobacco companies know 
it.
    Throughout the 1980s and 1990s, the use of smokeless 
tobacco by teens declined at about the same rate as cigarette 
smoking. But over the last few years, the decline in smokeless 
tobacco use has stagnated, and use has increased. Last year, 
smokeless tobacco use among 10th graders reached its highest 
level since 2002. This is a serious health risk. The increased 
use of smokeless tobacco will mean millions more teens getting 
hooked on nicotine.
    That is why I want to thank you, Chairman Pallone, for 
holding today's hearing. We will hear from some of the Nation's 
leading experts in smokeless tobacco use, learn about its 
risks, and learn about how to stem the rising tide of use by 
young people.
    Two of our witnesses are not new to this Committee. In 
1994, when I was chairman of the Subcommittee on Health and the 
Environment, I chaired hearings on the health effects of 
smokeless tobacco. At those hearings, we heard from Dr. 
Connolly and from Joe Garagiola, both of whom will be 
testifying today on the second panel. Mr. Garagiola's 1994 
testimony discussed the same subject we will focus on today: 
the impact of tobacco use by Major League Baseball players and 
how it influences young people. We appreciate the work they 
have done for decades now to reduce the use of smokeless 
tobacco by kids and by Major League Baseball players. 
Unfortunately, Major League Baseball, and the players' union, 
have yet to take decisive steps to end this terrible scourge. 
Some progress has been made. In 1993, Commissioner Selig banned 
smokeless tobacco in minor league clubhouses and dugouts and 
therefore baseball no longer allows tobacco companies to 
provide free samples to players. And the league and the union 
continue to educate players and fund efforts to reduce tobacco 
use by youth. But at the Major League level, there continues to 
be no restrictions on the use of smokeless tobacco by players. 
This means that millions of young fans are exposed on a daily 
basis to the use of smokeless tobacco by their heroes. The 
camera shots are relentless. A recent study by Dr. Connolly's 
colleagues at Harvard found that in just one game of the 2004 
World Series, ballplayers provided $6.4 million worth of free 
advertising for smokeless tobacco. If you are a Major League 
Baseball player, and you are chewing tobacco, you can bet that 
many thousands of young, impressionable ballplayers are 
watching you chew. Too many of them will take up the habit to 
be just like you. That is why Major League Baseball and the 
players association need to take action to end the use of 
smokeless tobacco by big league players. We are not saying they 
should ban the players from using it but not to use it when 
they are in public, when they are on the field. We don't let 
baseball players in the leagues go stand out there in the field 
and drink beer. Major League Baseball won't allow them to stand 
on the field and smoke cigarettes. So why should they be out 
there in the field in sight of all their fans on television and 
at the ballpark using smokeless tobacco?
    I think that baseball has the opportunity to protect 
players' health and protect the health of millions of young 
adults. This committee will continue its vigorous and ongoing 
oversight of these issues. When Major League Baseball and the 
union get together and negotiate the next contract, I hope this 
will be on the table. I don't know why there would be an 
objection from the players' union to the same rules for Major 
League Baseball that apply to minor league baseball where they 
don't allow the use of smokeless tobacco. The protection of 
young Americans from the ravages of tobacco in all its forms 
demands no less, and Major League Baseball and its players must 
step up to the plate to do their part.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.013
    
    [GRAPHIC] [TIFF OMITTED] T6022A.014
    
    [GRAPHIC] [TIFF OMITTED] T6022A.015
    
    [GRAPHIC] [TIFF OMITTED] T6022A.016
    
    [GRAPHIC] [TIFF OMITTED] T6022A.017
    
    [GRAPHIC] [TIFF OMITTED] T6022A.018
    
    Mr. Pallone. Thank you, Chairman Waxman. I neglected to 
thank you in the beginning, but I want to now for all you have 
done over the years to bring to light the problems with smoking 
and the industry and championing and sponsoring the legislation 
that has the FDA regulate tobacco use, so you are going back to 
the 1990s and you have been doing this for so many years, so I 
just wanted to mention that.
    Next is the gentleman from Kentucky, Mr. Whitfield.

  OPENING STATEMENT OF HON. ED WHITFIELD, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF KENTUCKY

    Mr. Whitfield. Thank you, Mr. Chairman.
    Today's hearing is titled ``Smokeless Tobacco: Impact on 
the Health of Our Nation's Youth,'' and I don't think any of us 
object to this type of hearing because it is imperative that we 
explore this issue, but I think it is also important, and I 
wish that we would be having a hearing on some mechanisms that 
are already in place that could probably do more on addressing 
this issue than this hearing would do. And what am I talking 
about? Well, first of all, I do want to mention that on March 
19, 2010, FDA reissued its 1996 rule and this rule becomes 
effective on June 22, 2010, which will prevent the sale of 
smokeless tobacco and cigarettes to those under 18 and prohibit 
distribution of free samples of smokeless tobacco as well. But 
what am I talking about? I think this hearing that we should be 
focusing on, for example, the language that was in the stimulus 
bill, and one of our complaints about some of that legislation 
was the fact that none of us really knew what was in it, but 
now are finding out, for example, that in the stimulus bill 
there is $650 million appropriated, made available to carry out 
evidence-based clinical and community-based prevention and 
wellness strategies. So the federal government is already 
giving out money to States if these States will use that money 
to address certain things like sugar in drinks, tobacco 
products and so forth. And yet none of us really knew anything 
about that, and I think it would be beneficial to all of us we 
could get into that in more detail.
    The second thing is the House also when it approved the 
health care bill approved--not only did we authorize but we 
appropriated $5 billion between 2010 and 2015 and then $2 
billion a year forever on programs that would allow States to 
submit application for grants from the federal government. And 
in those grants, they are doing things like saying that they 
are going to increase taxes on certain products, that they are 
going to be involved in zoning in where, for example, tobacco 
products or other unhealthy products could be marketed. They 
are also even talking about reducing the density of fast-food 
establishments, and what does that actually mean? Are we going 
to be determining where fast-food restaurants are located?
    So while this hearing is worthwhile, I think our time would 
be better spent on examining thoroughly what happened in the 
stimulus bill and the health care bill and the money 
appropriated for that relating directly to this issue. Thank 
you.
    Mr. Pallone. Thank you.
    The gentlewoman from California, Ms. Eshoo.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Good morning, Mr. Chairman. Thank you for 
holding this hearing on the health impacts of smokeless 
tobacco, especially its effect on the young people of our 
country, which I really think goes to the heart of this issue. 
This committee has spent a great amount of time examining the 
health risks of smoking, and I am pleased that we are focusing 
on this issue of smokeless tobacco today.
    While cigarette smoking has declined substantially in our 
country, which is very good news, especially in the last 10 
years, smokeless tobacco use has decreased only slightly over 
that period. This suggests that smokeless tobacco use is not a 
substitute for smoking but instead is adding to the number of 
tobacco users. Increased education and awareness about the 
health risks of smoking along with tougher regulations have led 
to a significant decrease in smokers in the United States. This 
has been a Herculean effort and I think it really signifies 
real progress.
    As the tobacco industry sees sharp declines in sales, it is 
obvious that they are looking toward alternative products to 
hook young customers. Smokeless tobacco is inconspicuous. Kids 
can use it at school or in class without causing much 
attention. Smokeless tobacco is also a gateway substance 
because kids who chew it are three and a half times more likely 
to start smoking cigarettes. Both R.J. Reynolds and Phillip 
Morris have introduced snus products, a less messy version of 
what chewing tobacco used to look like. These small, contained 
mesh packages are placed just under the upper lip, making it 
more difficult to detect and eliminate the need for a spitting 
cup. It really sounds pleasant, doesn't it?
    While the research is not definitive, many claim that 
smokeless tobacco is less harmful than smoking. A recent 60 
Minutes investigation on the use of smokeless tobacco claims 
that because tobacco manufacturers are not allowed to advertise 
that it is any safer than cigarettes, their ads focus on 
smokeless tobacco as a way to get around smoking bans, using 
smokeless tobacco in the subway or at work.
    I think that smokeless tobacco is a serious health hazard. 
I think we have to do more to prevent young people from forming 
these early addictions, and I look forward to hearing from our 
witnesses today, most especially from former Major League 
Baseball player Joe Garagiola, Sr.--it is really an honor to 
have you here and to see you, I am a great fan of yours--and to 
understand how our Nation's role models can set good, healthy 
examples for the younger generation who look up to them.
    Thank you, Mr. Chairman, and I look forward to the 
testimony.
    Mr. Pallone. Thank you.
    Next is the gentleman from Indiana, Mr. Buyer.

  OPENING STATEMENT OF HON. STEVE BUYER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Buyer. Thank you very much.
    First of all, I would like to express my disappointment 
that no one from the Center for Tobacco Products is here to 
testify today, and now that the Center is up and running, we do 
not have a single witness from what is to be the premier 
tobacco regulator in our country, so I am very disappointed, 
and I have a sense that the Center has been deliberately 
disregarded in this hearing.
    I continue to remain very interested in the issue of 
smoking cessation in country. Chairman Waxman and I feverishly 
debated this matter last year and I continue to follow the 
science behind smoking cessation with hopes that we can share 
valuable information with 45 million Americans who continue to 
smoke today despite strong public health campaigns that have 
been in operation for 40 years. We know that today over 70 
percent of the tobacco users want to give up smoking, and 
treatments for the diseases related to tobacco are costly for 
our country. However, according to the Surgeon General's report 
in 2008, of the 45 percent of smokers who reported trying to 
quit in 2008, only 4 to 7 percent were successful and I believe 
that that is failure, and what is really disappointing is, is 
that the bill that was passed locks America into a system of 
failure. Americans have no access to information about the 
alternative methods of smoking cessation. For decades we have 
left them with the understanding that they must either quit 
smoking or die. However, this is not the only option for them, 
and there is a vast schism in the public health community that 
is crying out for the FDA and government officials to 
acknowledge the scientific research which continues to show 
that individuals throughout the world are finding tremendous 
success through harm-reduction strategies yet we continue to 
ignore harm-reduction strategies with regard to smoking. Oh, we 
will apply them to everything else in life but not to smoking, 
and I think that is pretty ridiculous. If we continue to employ 
harm-reduction strategies and give Americans this information 
showing the respective risks of tobacco products ranging from 
cigars and cigarettes to smokeless products and eventually 
pharmaceutical smoking products and complete cessation, we can 
give Americans who cannot or will not quit smoking new options 
to obtain the nicotine that they are dependent on or from 
products that are up to 99 percent less hazardous than 
cigarettes in terms of risk of tobacco-related illness. We must 
acknowledge the growing public health community that is 
acknowledging the differential risks between cigarettes and 
non-burning tobacco products including almost 80 peer-reviewed 
scientific and medical publications over the last 25 years of 
which four of them, Mr. Chairman, I am going to ask be 
submitted for the record.
    The FDA stated on its Web site that it will perform its 
duties by using the best available science to guide the 
development and implementation of effective public health 
strategies to reduce the burden of illness and death caused by 
tobacco products. In carrying out its responsibilities to 
implement the bill we passed last year, while neither the FDA 
nor the Center for Tobacco Products are here to testify, I look 
forward to asking the CDC and NCI about their initiatives to 
incorporate the latest science into our Nation's tobacco 
control programs so that we can most effectively reduce death 
and disease attributed to tobacco. I yield back.
    Mr. Pallone. Thank you, Mr. Buyer.
    Next is the gentleman from New York, a big fan of Major 
League Baseball, from what I remember, Mr. Engel.

 OPENING STATEMENT OF HON. ELIOT L. ENGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Engel. Well, thank you very much, Mr. Chairman, for 
having this important hearing today to examine the prevalence 
in use of smokeless tobacco products, the health effects from 
use of these products and the correlation between smokeless 
tobacco use by youth and Major League Baseball players.
    It is fitting, Mr. Chairman, that we hold this hearing in 
April as our Nation has once again embraced the start of a 
baseball season. I represent the Bronx. I am from the Bronx, 
and I grew up less than half a mile from Yankee Stadium, and I 
love the Mets as well, so know how much joy the game can bring 
for so many families including my own three children. I can't 
even count how many games I have brought them to, and thank 
you, Mr. Chairman, for remembering that I am a big baseball 
fan. And these players rightly or wrongly are someone kids are 
fascinated with for their athleticism and accomplishments for 
the best of the best in baseball. Kids are like sponges soaking 
up everything around them, and whether or not it seems subtle, 
they pick up on one of the more unfortunate aspects of 
baseball, which is the prevalent use of smokeless tobacco. 
Today we have reports that up to a third of Major League 
players report using this highly addictive drug. Smokeless 
tobacco puts people at risk for oral cancer, gum disease, heart 
attacks, cardiovascular disease and cancer. It also causes 
leukoplakia, a disease of the mouth characterized by white 
patches and oral lesions.
    I want to commend Major League Baseball for trying to 
proactively help our players and in turn the kids that look up 
to them through their efforts. The 1993 minor league tobacco 
policy has banned the use and possession of all tobacco 
products by club personnel and by players in minor league 
ballparks and during team travel as well. Major League Baseball 
established the National Spit Tobacco Education Program, called 
NSTEP, to curb the use of smokeless tobacco products through 
public service announcements featuring popular players and 
education and treatment programs for players, but there is a 
major gap in MLB. While personnel are barred from smoking with 
a uniform in view of spectators, they can still chew tobacco. 
MLB has said that this policy is one that the players 
association has sought to protect in collective bargaining. I 
am concerned that the players association continues to contend 
in their written testimony today that baseball players should 
not be prohibited from using substances that are legal and 
available to the general public. Mr. Prouty has even said that 
it is impossible for most fans to tell if players are using 
smokeless tobacco while playing baseball or in the dugout. I 
have to say I am disappointed in this response. There have been 
well documented instances of players on TV being clearly shown 
to be using smokeless tobacco. In fact, in one World Series 
game in 2004, at least 9 minutes of such footage was shown, so 
kids do see it. And secondly, while smokeless tobacco may be 
legal, there is a difference between players who want to use it 
in the privacy of their own homes and when they are on TV being 
paid very generous salaries to provide entertainment to 
millions of families each night. Every workplace has rules 
about what their employees can and cannot do. Such is a matter 
of respect for the institution of Congress. We have to wear 
suits and ties or other appropriate attire when on the floor of 
the house. So therefore, it seems quite fair and reasonable 
that players abstain from using smokeless tobacco on the field, 
and I urge the players association to continue to consider 
these facts.
    I want to welcome Joe Garagiola, who is one of my personal 
heroes, and the other people testifying today, and I thank you, 
Mr. Chairman.
    Mr. Pallone. Thank you, Mr. Engel.
    Next is the gentleman from Georgia, Mr. Gingrey.

  OPENING STATEMENT OF HON. PHIL GINGREY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Gingrey. Mr. Chairman, thank you.
    According to a 2007 CDC study, 20 percent of high school 
students smoke cigarettes and 8 percent of them use smokeless 
tobacco. While smokeless tobacco may not be as prevalent among 
teenagers as cigarettes, it can be no less damaging to their 
health. All forms of oral tobacco have chemicals known to cause 
cancer of the mouth, pancreas and esophagus. Oral and smokeless 
tobacco also cause many other health problems such as gum 
disease, destruction of bone sockets around the teeth and 
eventually tooth loss.
    All of us here today have experienced the pain and the loss 
that comes with the onset of cancer. The mother of one of my 
staff, her name is Mrs. Margaret Horn, was diagnosed with 
leukemia a year and a half ago. There are many like Margaret in 
communities and cities across this country that will face 
cancer in their lifetime. It is a deadly disease and one for 
which a cure is long, long overdue. It is with this thought in 
mind that I want to thank Chairman Pallone for his interest in 
this subject. Even one death from cancer is one too many.
    Today we understand the impact that advertising and 
pictures can have on our youth. Early movie stars of the 20th 
century made smoking so fashionable. I even remember seeing ads 
in magazines like Look and Life where there would be physicians 
in their white coats and the stethoscope in their pocket. They 
kept in the pocket back in those days. They didn't drape it 
around their neck. But they would have a cigarette in their 
hand. It was just amazing, and I am sure all of you have seen 
those ads.
    And of course, there are some baseball players who will 
always in part be remembered for the amount of tobacco that 
they could stuff into their cheek. Like anyone up on stage, 
heroes can be memorable for the big things and for the little 
things they do. With any impressionable child comes a chance 
that they could emulate their heroes. To deny it is to deny the 
importance that our heroes have to us as adults looking back. 
The number of people on both sides of the dais of the committee 
members paying tribute to Joe Garagiola, I do the same. I 
remember when I was a kid growing up, and I loved catchers. I 
never played catcher but I loved to follow the career of Joe 
Garagiola and Clint Courtney and of course Yogi Berra. So, you 
know, we all look back on our heroes and look up to them. If 
smokeless tobacco was not something readily associated with 
baseball players, I don't believe that bubble gum today would 
be sold in packages that resemble these tobacco pouches. When I 
was a kid, that is not how you got bubble gum. So in short, 
there is an obvious correlation between the two.
    I do want to make one point in light of all the testimony 
that we are going to hear today. I do not doubt that children 
may look up to baseball players or movie stars. However, I 
think it is fair to say that parents can and should be their 
greatest heroes. There will be many things in life, many 
choices that are our children will face, many influences they 
will have to weigh. It is the parents who have the greatest 
opportunity and ability to educate our children about things 
not only tobacco but alcohol and drugs and a lot of bad 
behavior. With this thought in mind, Mr. Chairman, I would like 
to encourage this committee not to forget the role that an 
informed and engaged parent can have on the health of their 
children.
    I look forward to hearing from both panels of witnesses. 
Thank you so much for being with us today. I yield back.
    Mr. Pallone. Thank you.
    The gentlewoman from Colorado, Ms. DeGette.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman.
    I have to say, I completely agree with the gentleman from 
Georgia about the role of parents, and that also is my view, 
that parents need to have a strong oversight over their kids. 
But also in addition to that, I think the gentleman will agree 
with me on this too. Study after study has shown that 
advertising influences for tobacco and tobacco products are 
particularly strong among minors, and in the past in the many 
hearings that this committee has had, we have seen the effects 
of advertising by tobacco companies on minors. In fact, in my 
home State of Colorado, the tobacco industry is spending $171 
million per year, and they will say that they are not targeting 
that at minors, but as we have seen in many hearings, much of 
that advertising is accepted by minors.
    I will also say, being the parent of two young daughters, 
teenage and young adults, I see that we have to revisit these 
issues with every generation. My older daughter, who is in 
college now, tells me that she is seeing many of her friends 
who are highly educated, intelligent young people smoking and 
using smokeless tobacco because they think it is cool, and so 
we have to revisit these issues generation after generation and 
we have to make sure that the people who these kids look up to 
are not using tobacco products with the assumption that they 
are OK for the kids.
    I am especially concerned about the smokeless tobacco 
because in places like Colorado, kids now are told from an 
early age that smoking can kill them, but in many areas the 
kids turn toward smokeless tobacco because they are not getting 
that same message, and so I really look forward to working with 
Major League Baseball and with all of my colleagues on this 
committee to make sure those same messages are getting out to 
kids and to make sure that our role models for these kids 
including baseball players are also giving that consistent 
message.
    My younger daughter, who is 16, is the biggest Colorado 
Rockies fan who exists. Her whole room is filled with posters 
of these players, and it is pretty cute to me because she is a 
girl, but she loves these players, she looks up to them as her 
peers and her friends and she goes to every game, so I want to 
make sure she gets the right messages from them, just like I 
want to make sure she gets the right messages from anybody else 
who is appealing to the teen market.
    Mr. Pallone. Thank you.
    The gentlewoman from Tennessee, Ms. Blackburn.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman.
    Welcome to all of our witnesses today. We are pleased that 
you are here and we appreciate the time that you have taken to 
prepare your testimony and be with us.
    Mr. Chairman, I will have to tell you, I do find it a bit 
perplexing that we are here once again to discuss youth tobacco 
usage when I have offered my bill, H.R. 1423, as an amendment 
in this committee not only this Congress but also last Congress 
to address this very issue, and unfortunately that request has 
fallen on deaf ears but we have had it here in committee and in 
subcommittee and looked at this during the markups in the 110th 
and the 111th Congress. H.R. 1432 is a good government piece 
which focuses on strengthening existing programs to prevent 
illegal tobacco use. The bill strengthens the existing work 
that States and localities are doing to reduce underage access 
to and use of tobacco products through the evolution of SINAR, 
a current successful and effective program to lower teen 
smoking. The legislation takes the next step in the evolution 
towards protecting youth and informing the public regarding 
tobacco products. Mr. Shimkus mentioned the use of the MSA 
funds, and it would have required States to use at least 10 
percent of those MSA funds on smoking cession and prevention 
programs. In addition, it would require the States to enforce 
their laws prohibiting the sale of tobacco products to minors 
or risk losing 40 percent of their federal subsidies. So when 
you say, those of you on the other side of the aisle say you 
are not sure about what to do, let me tell you, we have some 
things that have been offered and we should be doing them, and 
I do feel that if the Democrat leadership was serious about 
reducing youth tobacco usage, surely there would have been 
thoughtful debate given to that legislation.
    But yet we are going to blame Major League Baseball for the 
ills of youth smokeless tobacco usage so let us be clear. If 
the MLB wants to change its policy on smokeless tobacco, an 
agreement will be reached between the MLB and the MLB players 
association. As the former president of the Middle, Tennessee, 
Lung Association, and as a grandmother with a 23-month-old who 
gets up every single morning and says go outside, play 
baseball, it is his favorite thing to do, I am very fully 
aware, I am fully aware of the risk of youth usage of tobacco. 
I just find it a little bit of grandstanding that you would 
pass not only in the 111th Congress but also in the 110th 
Congress to take action and at a time when we should be dealing 
with a budget that the Democrat leadership does not want to 
deal with and when we should be looking at the problems that 
have already been found with the health care that passed, we 
are here once again addressing this issue when the solution is 
clearly in front of you. I yield back.
    Mr. Pallone. Next is the gentlewoman from California, our 
vice chair, Ms. Capps.
    Mrs. Capps. Thank you, Chairman Pallone, for holding this 
extremely important hearing. I wish to introduce for the record 
two important statements from our non-governmental 
organizations, one being Legacy and the other, the American 
Association for Cancer Research, in support of this hearing.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. Without objection, so ordered.

   OPENING STATEMENT OF HON. LOIS CAPPS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Capps. It is common knowledge that tobacco is 
unhealthy, dangerous and deadly. While we as a Nation have 
taken great steps to reduce tobacco use, especially cigarette 
smoking, we should all be alarmed by recent studies showing an 
increase in smokeless tobacco use among young people. In my 
field of public health, I am especially concerned that 
smokeless tobacco products are somehow seen as a safe 
alternative to cigarettes. We know conclusively that tobacco is 
an addictive substance in any of its forms. It causes numerous 
types of cancer, gum disease, oral lesions and increases one's 
risk of cardiovascular disease. What is worse is that some of 
these health repercussions can occur within just a few years of 
use.
    Tobacco companies have a history of targeting their 
marketing campaigns to children and youth, encouraging them to 
start using their products at an early age. One particularly 
effective strategy was to get celebrity baseball players to 
endorse and use their products both on and off the field. We 
continue to deal with the negative repercussions of this today.
    I commend the work that baseball has done to curb the use 
of smokeless tobacco. I salute you for that. In particular, the 
ban on its use in the minor leagues was a bold step to improve 
the health of both their players and the public. Despite these 
efforts, Major League Baseball continues to be a venue where 
smokeless tobacco usage is glamorized. At best, it is free 
advertising for the tobacco industry. At worse, it is putting 
the lives of America's children at risk.
    On a personal note, I have seen how my own grandchildren 
look up to athletes with such admiration. Children and 
adolescents watch these games to see their heroes compete. They 
try to mimic their throws and their swings. What else will they 
copy? While I sincerely hope that children who look up to 
baseball players can learn to filter out the negative messages 
they are receiving about smokeless tobacco use, you know, they 
really shouldn't have to do that. So I look forward to hearing 
from our witnesses today and appreciate the fact that you are 
here, and I yield back my time.
    Mr. Pallone. Thank you, Ms. Capps.
    The gentleman from Texas, our ranking member, Mr. Barton.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Chairman Pallone.
    There is a famous poem about Casey at the bat that starts 
out, and I am trying to quote it from memory, so if I miss it, 
I apologize to those who know it by heart. But it says, 
``Somewhere birds are singing, somewhere people shout but there 
is no joy in Mudville, mighty Casey has struck out.'' This is a 
hearing that appears to have struck before we have even started 
it, Mr. Chairman, not that I don't like baseball, I love 
baseball. I remember when Joe Garagiola was actually a catcher 
for the Pittsburgh Pirates. That shows how far back I go. We 
are glad to have him here. I am not a big fan of tobacco. I 
have never smoked a tobacco cigarette. I have never used 
smokeless tobacco. I don't allow smoking in my office. That has 
been a policy since I got elected in 1985. So I am not an 
apologist for the tobacco industry. I don't accept and never 
have political action contributions from tobacco companies. But 
I don't see the need, Mr. Chairman, on this particular hearing 
the way it is structured. We have passed a law regulating 
tobacco products. I didn't support that law. Under that, the 
FDA has issued rules prohibiting the marketing of tobacco 
products to people under the age of 18. Their rule has been put 
on their Web site. It appears to me to be pretty explicit and 
fairly exhaustive in its attempt to prevent tobacco products 
getting to our youth. There may be a few Major League Baseball 
players that are under the age of 18. I am not aware of any but 
I guess it is technically possible. If a Major Leaguer wants to 
use a tobacco product, he still has that right under our 
Constitution to do so. If that product happens to be smokeless 
tobacco, he has the right to use it, and so far as I know, 
there is not a prohibition against a Major League Baseball 
player being a sponsor or somehow a spokesperson or being used 
in an advertising campaign for that product. Again, I am not 
defending the product, but even under the new law, it is a 
legal product.
    So we are going to have a hearing today, Mr. Chairman, 
where we appear to be trying to intimidate Major League 
Baseball into prohibiting or discouraging their players from 
engaging in either the use of these products or serving as 
spokespersons and in some sort of advertising situation for 
those products. I think that is a misuse of the subcommittee's 
time, Mr. Chairman. I think time would be better spent if we 
began to investigate and oversee this recent mammoth 3,000-page 
health bill that is now the law of the land. I was given 
yesterday a draft, a 55-page draft of the mandates and the 
timelines in that bill that are now law. There are many 
mandates that become effective date of enactment, which is 
March 23, 2010, that are already not being honored by the Obama 
Administration. I think our time would be better spent, Mr. 
Chairman, if we began immediately to see what the pluses and 
minuses are of the new health care law and spent less time 
appearing to do a grandstand hearing simply because Opening Day 
was a couple weeks ago and people are beginning to focus on the 
diamond and what activities are going on in Major League 
Baseball.
    I do thank the witnesses for appearing. I know you are here 
sincerely to express your position and that there are issues to 
be addressed. I don't think it should the subject of a 
Congressional hearing at this point in time.
    With that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Barton follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.019
    
    [GRAPHIC] [TIFF OMITTED] T6022A.020
    
    [GRAPHIC] [TIFF OMITTED] T6022A.021
    
    [GRAPHIC] [TIFF OMITTED] T6022A.022
    
    [GRAPHIC] [TIFF OMITTED] T6022A.023
    
    [GRAPHIC] [TIFF OMITTED] T6022A.024
    
    Mr. Pallone. The gentlewoman from the Virgin Islands, Ms. 
Christensen.

       OPENING STATEMENT OF HON. DONNA M. CHRISTENSEN, A 
       REPRESENTATIVE IN CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    When we passed the Family Smoking Prevention and Tobacco 
Act, we did so to control and hopefully reduce all tobacco use, 
so I want to thank you, Chairman Pallone and Ranking Member 
Shimkus, for holding this hearing because we are seeing 
companies trying to redirect their marketing to the smokeless 
tobacco market and it is important to remind everyone that 
smokeless tobacco is also addicting and has harmful effects 
such as oral and throat cancer and increased risk for 
esophageal, stomach and pancreatic cancers as well as heart 
disease and stroke. So smokeless tobacco is by no means a safe 
substitute for cigarettes. Therefore, the increasing use of 
smokeless tobacco among anyone but especially today's youth is 
quite troubling to me as a physician, a mother and a 
grandmother of a 3-year-old who is now in tee ball.
    The history of smokeless tobacco use in Major League 
Baseball only exacerbates the problem in today's youth because 
of the influence that athletes, celebrities and entertainers 
have on them. However cool, exciting or glamorous these 
athletes or celebrities may seem, there is nothing cool, 
exciting or glamorous about the harmful effects caused by using 
smokeless tobacco that could impair or cut short the potential 
of a young person before they even get the chance to experience 
all that life has to offer.
    The bill we passed and the President signed will restrict 
marketing and advertising of tobacco products near schools and 
playgrounds beginning this summer as well as implement other 
limitations, but that is not enough. We do appreciate the 
actions that the minor leagues have taken and look forward to 
stronger action from Major League Baseball and to working 
together around this Act and any additional legislation or 
initiatives that will work to reduce and prevent the use of 
smokeless tobacco and all tobacco in today's youth.
    We appreciate our witnesses being here. We would like to 
welcome also especially Joe Garagiola and we look forward to 
the testimonies. Thank you. I yield back.
    Mr. Pallone. Thank you.
    The gentleman from Utah, Mr. Matheson.
    Mr. Matheson. Thanks, Mr. Chairman. I will waive my opening 
statement.
    Mr. Pallone. The gentlewoman from Illinois, Ms. Schakowsky.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. First of all, Mr. Chairman, I want to thank 
you for holding this hearing. It is never a waste of time for 
us to focus on health risks that are posed to our children and 
to have a thorough discussion over what may be done either 
within this Congress or outside of in order to make sure that 
our children are protected.
    We know that on March 31st President Obama signed the PACT 
Act into law, and this new law is a huge step forward in our 
fight against the underage use of tobacco products and was 
built on decades of advocacy and public outreach, and I applaud 
this victory but I know that we have much work ahead. Big 
Tobacco is still finding its way into the lives of our youth. I 
think everyone in this room knows that chewing tobacco is just 
as dangerous as lighting a cigarette, and we have heard over 
and over what those risks are, but we have also started to see 
a resurgence in the use of these products among young people, 
particularly among young men, and prevention is an ongoing 
process, as my colleague, Congresswoman DeGette, said. Every 
generation we always have to keep repeating this.
    As I was preparing for this hearing, one of my wonderful 
interns, Michael Cottler, told me stories about his college 
baseball team. Half of his team used tobacco products. Most of 
them would chew but not smoke, and according to him, the 
players chewed during games, not off the field. His experience 
tells me we still have work to do and that a big chunk of the 
responsibility to stop use of tobacco products by underage kids 
comes from the role models that they look up to. And every time 
I watch a baseball player spit before stepping up to the bat, I 
know there are young ballplayers who dream of becoming pros who 
see those images too.
    According to the Harvard study of public health, just one 
World Series game in 2004 had over 9 minutes of free 
advertising for the tobacco industry because of shots of 
players chomping on chew. I mean, you know, sometimes it 
surprises me that this is looked at as attractive in any way 
but apparently to young men, it does look very cool and 
authentic.
    Smokeless tobacco is not a healthier substitute for 
cigarettes. It destroys lives and kills just as effectively as 
its smoked counterpart. There has been an incredible grassroots 
effort to educate the public about the dangers of smoking and 
we have seen a significant reduction in underage smoking 
because of it. Without that same commitment, I worry that young 
people like my intern's baseball team will see chewing as an OK 
substitute for cigarettes.
    I applaud the minor league tobacco policy which has taken 
smokeless tobacco out of the clubhouses and ball fields of the 
minor leagues. We are going to need that same type of 
aggressive action at the major league level if we are going to 
get tobacco products out of the game, and I yield back.
    Mr. Pallone. Thank you.
    The gentleman from Texas, Mr. Green.

   OPENING STATEMENT OF HON. GENE GREEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Green. Thank you, Mr. Chairman, for holding the hearing 
on smokeless tobacco and the impact on our Nation's children 
and use in Major League Baseball.
    Each year millions of teenagers use smokeless tobacco. 
According to the CDC, 13.4 percent of U.S. high school boys and 
2.3 percent of high school girls currently use smokeless 
tobacco products. Youth prevalence data from the Centers for 
Disease Control also shows that while cigarette smoking has 
declined substantially in the last 10 years, smokeless tobacco 
use has decreased only slightly over that period. The CDC found 
that among high school boys, usage rates of smokeless tobacco 
increased by 22 percent between 2003 and 2007. There is a 
perception that smokeless tobacco is a safe product and we 
should be clear that studies have found that smokeless tobacco 
can contain as many as 28 different carcinogens and smokeless 
tobacco causes oral cancer, gum disease, increased risk of 
heart attack, cardiovascular disease and nicotine addiction. 
The World Health Organization's International Agency for 
Research on Cancer concluded that smokeless tobacco users have 
an 80 percent higher risk of developing oral cancer and 60 
percent higher risk of developing pancreatic and esophageal 
cancer. Smokeless tobacco can be an alternative to smoking 
cigarettes and may be perceived as safer than smoking 
cigarettes but there are still significant health risks 
associated with smokeless tobacco.
    Today we are discussing the use of smokeless tobacco in 
Major League Baseball and how that impacts our youth. Like my 
colleagues, there is nothing more American than baseball. I am 
a fan of the Houston Astros. I actually worked there. I had the 
ideal job for a 7th grader. I could sell soda water and earn 
$10 a night and see all the baseball I wanted. In fact, I 
skipped school to be able to go to Opening Day when we had the 
Colt 45, so I remember it very well. But we still have to 
provide the leadership from the players. Major League Baseball 
has banned cigarette use by major league players in uniform and 
in view of the public, has been banned for over 3 decades. 
However, there are no restrictions on the use of smokeless 
tobacco. Steps have been taken to restrict smokeless tobacco 
use by players in uniform in minor league baseball but these 
measures have not been in place in the major leagues. We do 
know that in 2003 approximately 36 percent of the baseball 
players in the league reported using smokeless tobacco. These 
players are idolized by our children and seen using smokeless 
tobacco which certainly we do not want to encourage our youth 
to begin using a harmful product because they see a sports hero 
using it.
    I look forward to the testimony of our witnesses, Mr. 
Chairman, and I yield back my time.
    Mr. Pallone. Thank you, Mr. Green.
    Next is the gentleman from Georgia, Mr. Barrow.
    Mr. Barrow. I thank the chairman. I will waive an opening.
    Mr. Pallone. Thank you.
    I think that everyone has had an opportunity to----
    Mr. Shimkus. Mr. Chairman?
    Mr. Pallone. Yes?
    Mr. Shimkus. I ask unanimous consent that my statement be 
submitted into the record. Would that go for everyone?
    Mr. Pallone. Yes. Without objection, it ordered that every 
member's statement in full will be submitted for the record.
    Mr. Shimkus. Thank you.
    Mr. Pallone. We are now going to turn to our witnesses, our 
first panel. I want to welcome them. Let me introduce the two 
of you. First is Dr. Terry Pechacek, who is associate director 
for science for the Office on Smoking and Health within the 
Centers for Disease Control and Prevention. And on my right is 
Dr. Deborah Winn, who is deputy director for the Division of 
Cancer Control and Population Sciences with the National Cancer 
Institute. Thank you both for being here. You know the drill. 
You have 5-minute openings that become part of the record, and 
of course, if you like, you may in the discretion of the 
committee submit additional statements in writing for inclusion 
in the record.
    We will start with Dr. Pechacek.

  STATEMENTS OF TERRY PECHACEK, PH.D., ASSOCIATE DIRECTOR FOR 
  SCIENCE, OFFICE ON SMOKING AND HEALTH, CENTERS FOR DISEASE 
    CONTROL AND PREVENTION; AND DEBORAH WINN, PH.D., DEPUTY 
   DIRECTOR OF THE DIVISION OF CANCER CONTROL AND POPULATION 
              SCIENCES, NATIONAL CANCER INSTITUTE

                  STATEMENT OF TERRY PECHACEK

    Mr. Pechacek. Mr. Chairman, Ranking Member and 
distinguished members of the subcommittee, thank you for the 
opportunity to participate in this hearing. My name is Dr. 
Terry Pechacek and I am the associate director for science in 
the Office of Smoking and Health at the Centers for Disease 
Control and Prevention. Today I will provide an overview of 
smokeless tobacco including health effects, trends and product 
use, and use of smokeless products and their marketing.
    I want to begin by emphasizing a very important point. 
There is no safe form of tobacco use. Use of any tobacco 
product is hazardous to health. The only proven way to reduce 
the staggering toll that tobacco use takes on our society is to 
prevent people from ever starting to use tobacco and to help 
those who already use these products to quit as early in life 
as possible.
    What is smokeless tobacco? Smokeless tobacco products come 
in two forms: chewing tobacco and snuff, or ground tobacco. In 
recent years, a new generation of smokeless tobacco products 
has entered the U.S. market. They include snus, a form of moist 
snuff, and dissolvable products such as lozenges, sticks and 
strips. The questions in national surveys that I will cite in 
this testimony generally ask respondents about the use of 
smokeless tobacco products without disaggregating information 
by specific product types.
    The scientific evidence clearly shows that using smokeless 
tobacco products is hazardous to health. They contain at least 
28 carcinogens and are known to cause oral, pancreatic and 
esophageal cancer. Some studies have also linked smokeless 
tobacco use to fatal heart attacks and certain adverse 
productive outcomes during pregnancy. Like cigarettes, 
smokeless tobacco contains nicotine and is highly addictive. As 
individuals use smokeless tobacco over time, they typically 
change products they use to get more nicotine. In doing so, 
they may be increasing their exposure to carcinogens and other 
toxic agents.
    The National Survey on Drug Use and Health, or NSDUH, which 
is conducted by the Health and Human Services' Substance Abuse 
and Mental Health Service Administration, indicates that about 
3.5 percent of persons in this country age 12 and older, or 
approximately 7.8 million persons, used smokeless tobacco in 
the past month. Men are more likely than women to use smokeless 
products. In fact, the highest prevalence of smokeless tobacco 
use in recent years has been among young adult men. Therefore, 
this testimony will focus on recent trends related to this 
population. The NSDUH survey reported a significant increase in 
smokeless tobacco use among persons 12 years and older from 3 
percent in 2004 to 3.5 percent in 2008. During these years, 
patterns of use among persons 26 and older have remained 
relatively stable at about 3 percent. Patterns of use among 
adolescent girls have also remained stable at a very low level. 
The observed increase primary comes from an increase among men 
18 to 25 years of age, especially in two demographic groups. 
Among non-Hispanic white men, rates increased from 13.6 percent 
in 2003 to 15.4 percent in 2008. Among Hispanic men age 18 to 
25, rates of smokeless tobacco use increased from 1.9 percent 
to 3.4 percent during that same time. Recent data from 
Monitoring the Future also confirms an increase among young 
males with the rate increasing from 15.8 percent in 12th-grade 
boys in 2008 up from 11 percent in 2007. Data from CDC's 2009 
youth risk behavior survey, which will be released this summer, 
also is showing significant increase in smokeless tobacco use 
since 2003 among both male high school students overall and 
non-Hispanic white high school students.
    As with smoking, most smokeless tobacco use begins during 
adolescence and young adulthood. Data from NSDUH shows that in 
2002, about 950,000 Americans 12 years and older used smokeless 
tobacco for the first time. By 2008, that number had increased 
to 1.4 million. Almost half of those first-time users were 
under 18 and almost three-fourths were male. Traditionally, 
cigarette smokers and smokeless tobacco users have been fairly 
distinct groups. However, several national surveys show that a 
large proportion of smokeless tobacco users are also smoking 
cigarettes. This pattern is most common among adolescents and 
young adults than among older Americans. In fact, the data 
indicates that two-thirds of males between 18 and 25 who use 
smokeless tobacco also smoke cigarettes. These trends need to 
be placed in the changing context of tobacco use in the United 
States including lower smoking rates, increased restrictions in 
smoking in public and increased social acceptability of 
smoking.
    Mr. Chairman, am I over my limit?
    Mr. Pallone. You are, but you can wrap up if you like.
    Mr. Pechacek. So the marketplace has been changing with the 
promotion of tobacco products increasing from 200 million in 
2005 to 300 million in 2006, and particular concern is that 
many of these smokeless products are being marketed in ways to 
satisfy and sustain their nicotine addictions when they are 
settings that do not allow smoking.
    So what is the public health harm? This dual use raises 
potential concerns. More than half of adolescents and young 
adults who are using smokeless tobacco also are smoking 
cigarettes. I have submitted my written testimony, which 
provides greater details on these important issues, but it is 
important to emphasize that recent increases in smokeless 
tobacco use by adolescent boys and young men as well as 
increasing dual use of cigarettes and smokeless tobacco are 
reasons for serious concern. Together these may portend a 
leveling off or even reversal in the decline of smoking and the 
perpetuation of nicotine dependence including high levels of 
tobacco-related disease and death in this country.
    Thank you for the opportunity to participate in this 
hearing and I would be happy to accept questions.
    [The prepared statement of Mr. Pechacek follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.025
    
    [GRAPHIC] [TIFF OMITTED] T6022A.026
    
    [GRAPHIC] [TIFF OMITTED] T6022A.027
    
    [GRAPHIC] [TIFF OMITTED] T6022A.028
    
    [GRAPHIC] [TIFF OMITTED] T6022A.029
    
    [GRAPHIC] [TIFF OMITTED] T6022A.030
    
    [GRAPHIC] [TIFF OMITTED] T6022A.031
    
    [GRAPHIC] [TIFF OMITTED] T6022A.032
    
    [GRAPHIC] [TIFF OMITTED] T6022A.033
    
    [GRAPHIC] [TIFF OMITTED] T6022A.034
    
    [GRAPHIC] [TIFF OMITTED] T6022A.035
    
    Mr. Pallone. Thank you, and thank you for being mindful of 
the time. I appreciate it.
    Dr. Winn.

                   STATEMENT OF DEBORAH WINN

    Ms. Winn. Thank you. Good morning. I am Deborah Winn, 
deputy director of the Division of Cancer Control and 
Population Sciences, National Cancer Institute, National 
Institutes of Health. Thank you, Chairman Pallone and 
distinguished members of the committee for the opportunity to 
be here to discuss smokeless tobacco and its health 
consequences.
    It is well established that the use of smokeless tobacco 
causes cancer of the mouth and throat, esophagus and pancreas. 
As far back as 1985, the Advisory Committee to the U.S. Surgeon 
General examined literature on health consequences associated 
with use of snuff and concluded that the evidence is strong 
that the use of snuff can cause cancer in humans. The evidence 
for causality is strongest for cancer of the oral cavity. The 
excess risk of cancer of the cheek and gums may reach nearly 50 
fold in long-term snuff users. Global health authorities have 
also reached similar conclusions. The World Health 
Organization's International Agency for Research on Cancer, 
which I will call IARC, convenes expert panels to evaluate the 
world's scientific literature on environmental agents to 
determine whether those agents cause cancer. Those reports are 
considered to be highly authoritative and are used extensively 
worldwide to provide the scientific basis for public health 
action. This group has evaluated the carcinogenicity of 
smokeless tobacco three times over the past 25 years and I 
served as a member of all three panels. In 2009, IARC concluded 
that the use of smokeless tobacco causes cancer of the mouth, 
throat, esophagus and pancreas. These findings were based on 
international data from North America, Scandinavia and Asia, 
among other places. Using smokeless tobacco is associated with 
at least a fourfold increased risk of oral cancer.
    Scientists have a fairly clear understanding of how 
smokeless tobacco causes cancer. It contains carcinogens, the 
most common of them being the tobacco-specific nitrosamines. 
Cancer may develop when metabolites of nitrosamines attach to 
DNA causing a genetic mutation. This mutation leads to other 
cellular disruptions and ultimately results in cancer. 
Nitrosamines are found in all tobacco products and are not safe 
at any level.
    In addition to cancer, smokeless tobacco users are more 
likely than non-users to develop leukoplakia, or white patches 
in the mouth that can lead to cancer. Other changes in the 
lining of the mouth related to smokeless tobacco include 
wrinkling of the inner cheek and gums and color changes. In the 
1980s, a national survey of teens found that more than 25 
percent of children who used smokeless tobacco have these 
changes compared to less than 1 percent of children who did not 
use smokeless tobacco.
    Cancer and leukoplakia are not the only adverse health 
effects linked to smokeless tobacco. It is also associated with 
gum disease, dental caries and reproductive effects such as 
decreased fetal growth, increased risk of preterm delivery and 
stillbirth. Other serious effects may include increase risk of 
heart attack and stroke. A recent summary of data regarding 
this subject showed that smokeless tobacco increased the risk 
of fatal heart attack by 13 percent and death from stroke by 40 
percent. Although more research is needed to firmly establish 
whether smokeless tobacco is a risk factor for heart attack and 
stroke, these studies suggest that smokeless tobacco may lead 
to serious health consequences other than cancer.
    Smokeless tobacco should not be substituted for cigarettes. 
A large study done by the American Cancer Society examined the 
health impact of quitting cigarette smoking versus substituting 
smokeless tobacco for cigarette smoking. It compared more than 
110,000 cigarette smokers who quit smoking and did not use any 
other tobacco products with 4,400 smokers who switched from 
smoking cigarettes to using smokeless tobacco. After 20 years 
of follow-up, the risk of dying was 8 percent higher among 
those who switched to smokeless tobacco than among those who 
quit tobacco use entirely. Those who switched from smoking to 
smokeless also had a 46 percent higher risk of dying from lung 
cancer, a 13 percent higher risk of coronary heart disease and 
a 24 percent higher risk of death from stroke compared to those 
who quit tobacco entirely. In another study, using both 
smokeless tobacco and cigarettes had a higher risk of heart 
attack than the risks of using either one or the other.
    It is important that people understand that there is no 
scientific evidence that using smokeless tobacco can help a 
person quit smoking. It does not provide a safer alternative to 
cigarettes. All tobacco products are harmful and cause cancer 
and there is no safe level of tobacco use.
    I want to switch to media findings. Research findings show 
that when adolescents associate a particular behavior with 
people or personality characteristics they admire, they are 
more willing to try that behavior because adolescents identify 
with such people. Baseball players like many athletes serve as 
role models and are probably considered the quintessential 
users of smokeless tobacco. There are high rates of smokeless 
tobacco advertising in magazines such as Sports Illustrated. 
Considerable research has demonstrated that smoking in movies 
or on TV increases positive attitudes towards smoking and 
intentions to smoke in update of tobacco use among adolescents. 
There is also evidence that positive role models can help 
prevent smoking onset. Several studies show that celebrity 
health behavior such as Magic Johnson's announcement of his HIV 
status or Katie Couric's televised colonoscopy on the Today 
show have immediate positive impacts, so actions taken by 
baseball players to discourage the use of smokeless tobacco 
could also have positive impact on youth behaviors.
    We focus today on smokeless tobacco. However, the 
scientific evidence continues to confirm that tobacco use in 
any form causes cancer. All tobacco products contain harmful 
chemicals, and no matter how they are presented in 
advertisements, be warned that all tobacco products are 
dangerous. The only way to reduce death and disease caused by 
tobacco use is to prevent youth from starting to smoke and to 
help current smokers to quit. These must remain our highest 
priorities, and I appreciate the opportunity to talk to you 
today.
    [The prepared statement of Ms. Winn follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.036
    
    [GRAPHIC] [TIFF OMITTED] T6022A.037
    
    [GRAPHIC] [TIFF OMITTED] T6022A.038
    
    [GRAPHIC] [TIFF OMITTED] T6022A.039
    
    [GRAPHIC] [TIFF OMITTED] T6022A.040
    
    [GRAPHIC] [TIFF OMITTED] T6022A.041
    
    [GRAPHIC] [TIFF OMITTED] T6022A.042
    
    Mr. Pallone. Thank you, Doctor.
    We are going to now take questions, 5 minutes from those 
who gave opening statements, and we have a few members who 
passed so they get 8 minutes for questions, and I will start 
with myself.
    Both of your testimony indicates strongly that smokeless 
tobacco causes cancer, and we have talked a lot about smoking 
tobacco and the different chemicals that make up a cigarette 
that cause cancer. Now, you started how it works with chewing 
tobacco when there is no smoking relation and how that causes 
cancer, but just explain it to me again because it wasn't too 
clear to me. What is it that causes the cancer? And then you 
specifically mentioned pancreatic which, you know, I often 
mention pancreatic at our hearings because my mom passed away 
from pancreatic cancer, and most people don't know, you know, 
when you ask what is the cause of pancreatic cancer, generally 
speaking, the answer is, we don't know, so if you would just 
reiterate some of that.
    Ms. Winn. Sure. I will start with pancreas cancer first, 
and important causes of pancreatic cancer are smoking and 
smokeless tobacco. Heavier weight is also associated with 
pancreatic cancer risk but there is certainly a great deal more 
than we need to learn regarding pancreatic cancer risk because 
we know that it is often identified at an advanced stage.
    With regard to how smokeless tobacco causes cancer, 
tobacco-specific nitrosamines are--nitrosamines are a category 
of carcinogens, and tobacco-specific nitrosamines are found 
only in tobacco products, and tobacco products contain these. 
They have been found in experimental animals to cause cancer. 
We also have done experiments that show the progression from 
metabolites of these nitrosamines, which attach to DNA that 
causes a replication error in the DNA when the DNA----
    Mr. Pallone. But in other words, you don't inhale it, so 
how does it get into your system?
    Ms. Winn. Because you are ingesting.
    Mr. Pallone. Just through your stomach, in other words, 
through your digestive system?
    Ms. Winn. Right.
    Mr. Pallone. And then, you know, we get these muddled 
messages about substituting smokeless for tobacco for just 
smoking. I mean, you have made it quite clear that you think 
that they are both dangerous, but what about this idea that 
somehow you can substitute smokeless and that somehow weans you 
off actually using cigarettes?
    Ms. Winn. There certainly are differences in risks between 
smokeless tobacco and smoking. However, what counts is the 
potential effect on the population of giving advice to 
recommend using smokeless tobacco. We have to consider that 
that type of a message may delay or halt some people from 
quitting smoking who might have quit smoking through some other 
means. We also know that smokeless tobacco is a gateway to 
smoking among young children. For example, in one study of 
adolescent boys, the boys who used smokeless tobacco and no 
other tobacco product were three times more likely 4 years 
later to be using----
    Mr. Pallone. Because there are studies that show that the 
perception of risk from smokeless tobacco is declining among 
youth, so bottom line, they may figure well, I better not smoke 
a cigarette but I will chew instead, and then they get 
addicted. We can't give the impression out that somehow that is 
OK because what you are saying is, it often leads to smoking 
cigarettes.
    Ms. Winn. Absolutely, and there are no safe levels, and 
smokeless tobacco causes a variety of diseases.
    Mr. Pallone. Let me ask Dr. Pechacek, your testimony 
explains how the scientific evidence clearly shows that 
smokeless tobacco is hazardous, that 28 carcinogens have been 
identified in smokeless tobacco. They cause specific physical 
feelings and effects, cardiovascular effects, fatal heart 
attacks. I mean, it seems to me that this is totally contrary 
to what a baseball player or any athlete would want to do, so 
how does tobacco use specifically affect the performance of an 
athlete, in particular a baseball player? Because young 
athletes, if they are paying attention, it would seem to me 
that it would hurt their athletic performance, not enhance it 
in any way. So what is the message there in terms of what it 
means if you are young and you start using this stuff?
    Mr. Pechacek. Well, first of all, our advice to both major 
league or youth baseball players is that like any other person, 
anyone who is using any form of tobacco, we would encourage 
them to quit as early in life as possible. It is especially 
important for the baseball players who are setting an example 
because like parents, teachers and coaches, they serve as role 
models to children and adolescents.
    With respect to the specific aspects on performance, I can 
provide you more detail on that from the previous work that has 
been done in the Surgeon General reports but the key point is 
that all users, particularly young adolescents and young adults 
who are following those role models, need to be aware that all 
forms of tobacco are addictive and cause cancer and serious 
health effects and that quitting all forms of tobacco use as 
early in life as possible will be very beneficial to their 
long-term health.
    Mr. Pallone. But I think they almost get the impression, 
young people, that somehow it enhances athletic performance and 
clearly it is the opposite in terms of performance.
    Mr. Pechacek. Well, the aspects of this and how youth 
perceive the product have been reviewed in past Surgeon General 
reports, most in detail in the 1994 Surgeon General report on 
the impact of tobacco on youth and young people. We are 
currently updating that report, which will be out next year, 
and are going into how these current patterns of smokeless 
tobacco are being perceived by youth and are impacting their 
overall decisions about what they are doing with using all 
tobacco products.
    Mr. Pallone. Thank you.
    The gentleman from Illinois.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Dr. Pechacek and Dr. Winn, I am getting conflicting 
briefing things. You are listed as doctors but in here it says 
Ph.D.'s. Are you medical doctors that have Ph.D.'s, or what is 
the title here?
    Mr. Pechacek. Ph.D., so I am an epidemiologist.
    Ms. Winn. I have a Ph.D. in epidemiology.
    Mr. Shimkus. Great. Thank you.
    Dr. Winn, we have had hearings, and I am new in the ranking 
member position, on the NCI and we appreciate the great work 
that the cancer institute does and we really are starting to 
focus on cost-benefit analysis, where the money goes, biggest 
return on investment versus the politicizing of some research 
dollars, and we will get more involved in that in the future, 
but what is the deputy director of the Division of Cancer 
Control and Population Sciences? For the layman, what does that 
mean?
    Ms. Winn. That means that we are the division that is 
responsible for understanding environmental exposures and 
genetic factors that may be linked to cancer in human 
population studies. We are responsible for the cancer registry 
system. We are responsible for understanding the effects of 
cancer on people's outcomes in terms of quality of life, 
physical functioning after cancer. We are responsible for 
understanding the access to cancer care, quality of cancer care 
in the United States.
    Mr. Shimkus. Thanks. I think that helps. But in this 
hearing, we are focusing on Major League Baseball but there are 
other environmental issues that we could probably address. I 
don't want to get raked over the coals but I represent deep 
southern Illinois, and of course NASCAR is well known for its 
advertising. Country and western music--I think most people 
identifying chewing tobacco use with the West and cowboy use 
and all those. Have you done similar focuses on or has our 
committee or are we just focusing on one area, Major League 
Baseball, and not looking at other environmental impacts?
    Ms. Winn. Most of the research that I presented was not 
done in tobacco in baseball players. Virtually all of the 
research that I have presented has either been in national 
surveys of schoolchildren or other populations.
    Mr. Shimkus. Great, and let me follow up with this, and 
then I will go to Dr. Pechacek. In your testimony, you said any 
tobacco use--I mean, my colleague, Mr. Buyer, is really on this 
risk avoidance and mitigation stuff but your testimony says 
that patches or nicotine gum is not any help in reducing 
nicotine and tobacco use for anyone.
    Ms. Winn. No, there are effective ways of quitting use of 
tobacco.
    Mr. Shimkus. That is fine. That is really I wanted to get 
record of. What you stated, I thought that you--and I think a 
lot of us would say, no, we want to encourage people to 
eliminate nicotine input over time, and most people can't do 
cold turkey. Some can't. But I think there are some risk 
avoidance and mitigation-type stuff and I know my colleague 
will follow up on that.
    Dr. Pechacek, according to a December 2009 report from the 
Campaign for Tobacco Free Kids, only one State currently funds 
a tobacco prevention program at the level recommended by the 
CDC. Do you agree with that assessment?
    Mr. Pechacek. We are continuing to work with our States, 
and it depends on what year. The most recent put out by the 
Campaign for Tobacco Free Kids, their criteria found that only 
one State met our guidelines for recommended funding.
    Mr. Shimkus. And so our focus probably should be, if we are 
serious about this, is calling in the States and asking them 
why aren't they fully funding the tobacco cessation plans as 
recommended by the CDC. Don't you think that would be another 
good approach?
    Mr. Pechacek. The CDC is very clearly on this 
recommendations to the States and about what works and what 
levels of investment would be most effective. We are in regular 
dialog with our States about comprehensive State programs and 
local tobacco programs that use the evidence-based approaches 
that have been shown to be effective and to be reducing rates 
of both youth and adult tobacco use.
    Mr. Shimkus. Thank you. That goes to my opening statement 
where I talk about the master settlement agreement, which would 
be about $206 billion over 25 years that the tobacco companies 
would pay. Don't you think it is pretty egregious that only 30 
percent of that money has gone to health care and only 3.5 
percent of those funds go to tobacco control like smoking 
cessation and education programs?
    Mr. Pechacek. CDC has been very consistent in providing 
evidence both to policymakers and individual States and to the 
other groups.
    Mr. Shimkus. You are being very political, and I appreciate 
that. My point is, the State attorneys general have a master 
settlement agreement which should have brought billions of 
dollars into States. The States have used that money to do 
other things other than health care and education. You have 
also testified that you have recommended to States that they do 
an educational program, believing that an exponential decrease 
in tobacco use by kids would occur if they would at least fully 
fund tobacco cessation and educational programs. I think if you 
go to the conclusion here, we have States who received billions 
of dollars who have not funded health care, who have not done 
cessation programs, and now to a point of we see an uptick in 
at least chew tobacco increase by kids, which is another 
example of us failing to do the job that we are asked to do and 
in essence took money for, thus showing how inept we are at 
doing the jobs we are asked to do by the public, and I yield 
back my time.
    Mr. Pallone. Thank you.
    Ms. Eshoo.
    Ms. Eshoo. Thank you.
    Dr. Winn and Dr. Pechacek, can you tell us what CDC and the 
National Cancer Institute have observed with regard to use of 
smokeless tobacco by teenagers?
    Mr. Pechacek. In my testimony, I reviewed the latest 
evidence that multiple surveys have shown an increase in 
smokeless tobacco use overall in youth populations. The data 
that we are going to be releasing this summer is the National 
Objective Youth Use Tobacco Survey showing an increase in 
smokeless tobacco use among adolescent males, high school males 
overall and white students.
    Ms. Eshoo. And in the minority community?
    Mr. Pechacek. The NSDUH survey has found that when it is 
looking at the recent increases nationwide in smokeless tobacco 
use over the last 4 to 5 years, that the greatest increases 
have been in non-Hispanic white and Hispanic males. So while 
there have been traditionally higher rates of use in some other 
demographic groups, non-Hispanic white males and Hispanic males 
are the ones who appear to be showing the greatest increases in 
recent years.
    Ms. Eshoo. Do you have any thoughts on what accounts for 
these increases in smokeless tobacco use? I mean, obviously we 
have representatives from baseball here today. I think that 
everything that adults do from being a parent to obviously 
anyone in sports is a--you know, they are the gladiators of the 
20th and the 21st century. So they heavily influence young 
people. I think we do as well. Congress isn't always known for 
putting forward all of its best but certainly when there is 
something that goes wrong here, by example of an individual 
member, that says something to the people of our country and 
obviously young people. So do you have anything that you want 
to tell us about what you think accounts for these increases in 
smokeless tobacco use?
    Mr. Pechacek. Yes. As the comments that in my written 
testimony which we submitted is that these recent upticks need 
to be placed in the changing context of tobacco use in this 
country. Smoking rates are down and restrictions on smoking in 
public places are increasing, particularly in your State of 
California. And overall we have observed that there is an 
increasing social acceptability of smoking.
    However, while these things are occurring, there have been 
significant changes in the smokeless tobacco industry and how 
smokeless tobacco products are marketed. Until 2006, smokeless 
tobacco was largely produced by companies that did not 
manufacture cigarettes. Now major cigarette manufacturing 
companies produce and sell most smokeless tobacco products in 
the United States. In recent years, these companies have been 
marketing smokeless tobacco and snus named after their leading 
cigarette brands. The advertising and promotional spending on 
these types of moist snuff products increased by 50 percent 
between 2005 and 2006, the latest year in which these data have 
been reported. This timing is significant because it was at 
this point in time that this transfer from the smokeless 
tobacco manufacturers being independent of cigarette makers 
started. Of particular concern is that many of these new 
smokeless products are being marketed in a way for smokers to 
satisfy and sustain their nicotine addiction when they are in 
settings that they cannot smoke.
    Additionally, to your point, while we do not have any new 
and more detailed studies with respect to sources of influence, 
the two largest groups where we are seeing the increase are in 
non-Hispanic young men and in Hispanic men. Additionally, we 
know from other data that----
    Ms. Eshoo. Let me just ask you about that. It is a little 
confusing. Non-Hispanic young men and Hispanic older men?
    Mr. Pechacek. No, 18- to 25-year-old white and Hispanic. We 
call it non-Hispanic white to separate it from Hispanic that 
self-identify Hispanic. So both Hispanic and non-Hispanic young 
men who are----
    Ms. Eshoo. You know what? It is got to be a little simpler. 
It sounds--I don't understand what you are saying. Let me put 
it that way. Name the groups. Name them.
    Mr. Pechacek. White and Hispanic young men 18 to 25 years 
old.
    Ms. Eshoo. Increase?
    Mr. Pechacek. Are increasing more than anybody else.
    Ms. Eshoo. All right. Well, I think that these are really 
disturbing trends. I just leaned over and I said to my staffer 
a little while ago, when it comes to baseball players, why 
don't they just chew gum, I mean, if they feel like they need 
to chew something, and she responded because they are addicted. 
So clearly I think there is a nexus here. I don't think it has 
everything to do with those that play baseball but on the other 
hand, they are individuals that are really looked up to and 
young people always want to look in the mirror and see the 
reflection of their heroes. So I think that we need to work 
hard to find a way to reverse these trends and make sure that 
smokeless tobacco really--when you come back in succeeding 
years, that we can claim that there is a huge decline. This 
isn't something that is healthy.
    Anyway, thank you very, very much for your testimony. Dr. 
Winn, I am over my time so I don't know if you wanted to add 
something to it, but maybe you can when someone else questions 
you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Pallone. Thank you.
    The gentleman from Kentucky, Mr. Whitfield.
    Mr. Whitfield. Thank you all for being with us today. I 
think that Congress has given the regulators a lot of 
opportunities to make great progress in this area. It is true, 
Mr. Pechacek, isn't it, that on June 22, 2010, it will be 
illegal to sell a smokeless tobacco product to anyone under the 
age of 18? Is that correct?
    Mr. Pechacek. Yes, that is my understanding of the bill, 
yes.
    Mr. Whitfield. Now, many of us were not aware of it but in 
the stimulus bill, which certainly was about creating jobs, 
there was $650 million set aside in there to address clinical 
and community-based prevention and wellness strategies, and it 
is my understanding that that money was given to HHS and CDC to 
get this money out there. So my question would be, number one, 
of that money, how much went for tobacco strategies in the 
States or the local communities?
    Mr. Pechacek. I don't have those detailed numbers. We would 
be happy to provide those to you and your staff in this 
committee.
    Mr. Whitfield. When this money became available, did you in 
your regulations set out how much money should be spent on 
nutrition and how much money on tobacco, how much money on 
obesity or anything like that?
    Mr. Pechacek. Well, yes, we can provide you the details on 
the funding announcement. The priorities were smoking 
prevention and obesity----
    Mr. Whitfield. You said a certain amount of money for each 
one of those in your regulations?
    Mr. Pechacek. There were funding guidelines that were put 
out to the States and the actual numbers we can get you in 
terms of how the breakdown on that----
    Mr. Whitfield. How much money remains to be spent of that 
$650 million?
    Mr. Pechacek. The application awards I believe are 
completed now and are available that we can make available to 
you. I think it all has gone through funding announcements and 
awards.
    Mr. Whitfield. Well, how much money has already been sent 
out?
    Mr. Pechacek. I would have to get our administrative people 
to give you the details on that since the--applications have 
been reviewed. However, the process of actually getting the 
money into States budgets, you know, is an administrative 
function.
    Mr. Whitfield. So you don't know how much is going to be 
going out in grants and you don't know how much money has 
already been distributed to States and local government under 
this program?
    Mr. Pechacek. With respect to that $650 million, all of 
that money was put into funding announcements, so yes, all of 
that is going out.
    Mr. Whitfield. Well, you know, one of the things that--I 
mean, this is a big problem obviously, smokeless tobacco and 
its impact on health, but to put this money in the stimulus 
bill, and then I read an article that in Washington, D.C., they 
received $977,000 and created one full-time job, and what did 
they do with that money? They bought BlackBerrys for people so 
that they could be in touch with their smoking counselors. Now, 
do you consider that a good utilization of the money?
    Mr. Pechacek. I don't have any details on that specific 
case. However, there is very specific guidance that is provided 
in the funding announcement from CDC with regard to the most 
efficacious, comprehensive strategies that have been shown to 
be effective and cost-effective in reducing tobacco use.
    Mr. Whitfield. Although we were not aware of it, in the 
health bill itself that passed, in the first 5 years there is 
over $5 billion set aside for a grant program to go out 
addressing the so-called maps intervention for communities 
program. Where are you all in developing the regulations for 
that?
    Mr. Pechacek. Well, first of all, a point of clarification, 
CDC is not a regulatory agency. We are a public health agency. 
With respect to----
    Mr. Whitfield. Well, HHS, you know, where they are on it.
    Mr. Pechacek. The specific aspects of that overall 
program----
    Mr. Whitfield. Will you be involved in distributing that 
grant money? Will CDC be involved?
    Mr. Pechacek. CDC has a role in working with HHS and the 
White House with respect to guiding the evidence-based 
interventions that have been found to be most effective.
    Mr. Whitfield. Well, I know in your position, you are 
involved with smoking and health. I want to ask one other 
question. One of the guidelines that they put in the area of 
nutrition in spending this money is urging communities, local 
communities to reduce density of fast-food establishments. How 
do you propose that that be done? How do you hope that will be 
accomplished?
    Mr. Pechacek. That is outside of my division. With respect 
to issues of tobacco, I can give you more specifics, but we can 
provide you feedback on what we are doing on density of fast-
food restaurants if you would like.
    Mr. Whitfield. Thank you. I see my time has expired. Mr. 
Chairman, if there is not an objection, I would just like to 
insert for the record a publication of the National Convenience 
Store Association going into some detail about the health 
portion of the stimulus bill as well as the Washington Times 
article about the BlackBerry.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. Without objection, so ordered.
    Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    Dr. Winn, your testimony describes baseball players, and I 
am quoting you, ``as the prototypical user of chewing 
tobacco.'' You also note that, and again, I quote from your 
written testimony, that ``adolescents engage in more risky 
behaviors including tobacco use to the extent they endorse 
positive prototypes of individuals who engage in those 
behaviors.'' I know that Mr. Manfred from Major League Baseball 
and Mr. Prouty from the Major League Baseball players' union 
are in the audience for this testimony and we will hear from 
them later, but I want them to hear your views on this matter, 
so let me ask you this very simple question. When teenagers and 
young adults see Major League Baseball players using smokeless 
tobacco, does it make it more likely that these young people 
will themselves become users?
    Ms. Winn. That is likely based on evidence that shows that 
peers and parents and other role models for children influence 
their use of smokeless tobacco.
    Mr. Engel. So it was an obvious question. I know that would 
be your answer. So let me also ask another obvious question. Do 
you believe that if Major League Baseball and the players' 
union were to agree to ban the use of smokeless tobacco on the 
field and in the dugout, would that result in a reduction in 
smokeless tobacco use among teenagers?
    Ms. Winn. Well, certainly the evidence from Katie Couric's 
colonoscopy and Magic Johnson's HIV status definitely had a 
positive impact on the U.S. public in terms of taking 
preventive measures, so it seems likely by analogy that that 
would have a positive effect on youth in the United States.
    Mr. Engel. Thank you.
    Dr. Pechacek, do you have any thoughts of the impact of the 
use of chewing tobacco by Major League Baseball players?
    Mr. Pechacek. The evidence that we have reviewed in the 
1994 Surgeon General report as well as other documents since 
then shows that professional athletes in certain sports 
including baseball have traditionally had high levels of 
smokeless tobacco use. Athletes serve as role models for youth 
and smokeless tobacco manufacturers have used these imageries 
in advertising testimonials by featuring athletes in sports to 
make smokeless tobacco products appear attractive to youth. 
Teens to mimic the behaviors of those who they look up to and 
identify with including baseball players and athletes. While 
smokeless tobacco use was prohibited in minor leagues in the 
early 1990s, this policy has not been extended to major 
leagues.
    Mr. Engel. Thank you.
    Dr. Winn, I have heard reports that in Sweden, significant 
numbers of people are quitting smoking and using smokeless 
tobacco and that the country's rates of lung cancers have gone 
down. This

might seem to support the argument that smokeless tobacco is a 
form of harm reduction. This argument rests on the idea about 
the use of smokeless tobacco is good because the risks of death 
and disease from using smokeless tobacco are less severe than 
the risks of death and disease from using cigarettes. So I want 
to ask you about that. Does that idea match up with reality? Is 
smokeless tobacco really a form of harm reduction, especially 
when we are talking about children who are not using any form 
of tobacco? I think that this notion of harm reduction becomes 
even more untenable in the case of young athletes in general. 
My understanding is that young athletes are less likely than 
the general population to smoke cigarettes but they are more 
likely to use smokeless tobacco. I want to hear your thoughts 
on that.
    Ms. Winn. Well, I have reviewed the report, the Swedish 
statistics, and I want to note that the claim that because the 
rates of smokeless tobacco have gone up that that has 
influenced the rates of smoking going down. Well, I want to 
emphasize three fundamental facts. One is that all tobacco 
products are hazardous and there is no safe level, and what we 
need to do is prevent its use and help them quit. But with 
regard to the Swedish situation, the Swedish National Institute 
of Public Health found in their survey that of Swedish women 
who use snuff, that is a relatively small portion of women in 
Sweden use snuff, but smoking rates have dramatically declined 
in Swedish women, indicating that snuff is actually not 
responsible for the decline in smoking. There is a continuum of 
risk associated with both smokeless tobacco and smoking but we 
are most concerned about issues related to dual use of smoking 
and smokeless tobacco and on smokeless tobacco as a gateway for 
children.
    Mr. Engel. So in the case of young athletes who don't smoke 
cigarettes but use smokeless tobacco because they see Major 
League Baseball players using it, would it be fair to say that 
smokeless tobacco use significantly increase their health 
risks?
    Ms. Winn. Yes. It increases their risk of oral lesions in 
their mouth and many oral lesions have the potential to develop 
oral cancer.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Mr. Pallone. Thank you.
    The gentleman from Indiana, Mr. Buyer.
    Mr. Buyer. Thank you, Mr. Chairman.
    Dr. Winn, I am trying to reconcile a couple of comments. 
You acknowledge that there is a continuum of risk within 
tobacco products, smoking to smokeless, pharmaceutical and 
quitting, a continuum of risk. You acknowledge that, correct?
    Ms. Winn. There is a continuum of risk associated with----
    Mr. Buyer. From very high risk to very low risk. You 
acknowledge that?
    Ms. Winn. Quantitating it at the higher load, they all have 
risks.
    Mr. Buyer. You acknowledge that there is a continuum of 
risk from very high risk to very minimal risk. Do you 
acknowledge?
    Ms. Winn. Very high risk to moderate risk.
    Mr. Buyer. To moderate risk, so if I can say in proving 
science that there is a product on the market that would remove 
99 percent of the nitrosamines, you would define the 1 percent 
as moderate?
    Ms. Winn. All smokeless tobaccos have some risk of health 
effects.
    Mr. Buyer. That is correct. I concur with that. Now, let me 
go back and acknowledge this, and let us not play games. Do you 
acknowledge that there is a continuum of risk from very high 
risk to very low risk?
    Ms. Winn. Of specific----
    Mr. Buyer. The health effects and the use of tobacco 
products.
    Ms. Winn. Some tobacco, for example, chronic obstructive 
pulmonary disease is not caused by smoking tobacco.
    Mr. Buyer. I am not going to quibble with you, because it 
appears that if you won't even acknowledge that there is a 
continuum of risk, then you are placing yourself in a camp of 
complete abstinence. Now, I will concur with you that tobacco 
products are not healthy. I concur with that. But to ignore 
that there is a continuum of risk from very high risk, cigars, 
to very low risk, which would be a product--let me ask you this 
question. If you able to put a product on the market that 
reduces the nitrosamines, does that improve the chances of 
one's, or does that eliminate then health risks?
    Ms. Winn. What causes us concern under those circumstances 
is the population effect that might be influenced by people 
smoking and adopting smokeless tobacco----
    Mr. Buyer. Do you acknowledge that if I can reduce the 
nitrosamines in a product that I can reduce the risk?
    Ms. Winn. There is no epidemiologic evidence that shows 
that that is the case. It is important that nitrosamine levels 
be reduced.
    Mr. Buyer. So are you saying to me then that an orb or a 
stick that has reduced 99 percent of the nitrosamines is just 
as harmful as smoking a cigar? That is what your statement is 
saying.
    Ms. Winn. Yes.
    Mr. Buyer. And you concur with that?
    Ms. Winn. Assessing nitrosamine levels or reduced 
nitrosamine products is under the purview of FDA so I would----
    Mr. Buyer. All right. Great. Your staff just gave you that 
so you could read it. But just answer the specific question.
    Ms. Winn. We don't know that there is any--there is no 
level of nitrosamines that is known to be safe.
    Mr. Buyer. Wow. So you are unwilling to recognize 
differentials of risk within tobacco products? I guess that is 
what I am hearing from you. You do not acknowledge that there 
is a differential of risks among tobacco products?
    Ms. Winn. There is a continuum of risk.
    Mr. Buyer. Thank you. We got there, didn't we? We got 
there. There is a continuum of risk. Now, why is that 
important? It is important because as a country, those of whom 
are the advocates of an abstinence approach are locking us in 
to a system of failure. If we only have up to 7 or 8 percent of 
whom want to quit, that is failure in my eyes. And so if we can 
actually migrate a population from smoking to smokeless to 
eventually quitting, that is important. Now, no one wants our 
teens or adolescents or youth or you name it to gain access to 
these products. So I concur with you on that point.
    Mr. Chairman, I respect you because you are open to many 
different distillations of thought and I believe in personal 
cultivation, I believe in the scholarship maintenance of our 
knowledge. It improves our self-worth and it is our quest for a 
greater understanding and ration and reason and tolerance to 
ameliorate. I am going to offer some differing views and I 
would like to offer them for the record. So what I would like 
to offer for unanimous consent to be placed into the record, 
first is a report called a Broken Promise to Our Children. It 
is an 11-year analysis of how the States are not spending the 
MSA settlement on tobacco prevention. I ask unanimous consent 
this be placed into the record.
    Mr. Pallone. Can I just ask, are some of these things going 
to be part of the printed record or can we just do them--how 
does it work? It looks like it is pretty extensive. We can? OK.
    Mr. Pallone. Without objection, so ordered.
    Mr. Buyer. I would also ask unanimous consent that the 
Strategic Dialog on Tobacco Harm Reduction: A Vision and 
Blueprint for Action in the United States by Mitch Zeller and 
Dorothy Hatsukami also be entered into the record.
    Mr. Pallone. Can I look at that? Go ahead. Why don't you 
continue?
    Mr. Buyer. I would also ask unanimous consent that the 
Smoke-Free Tobacco and Nicotine Products Reducing the Risk of 
Tobacco-Related Diseases and by Scott Ballin be entered into 
the record.
    And last, I would unanimous consent--not last. I would ask 
unanimous consent that the brief report on evidence against a 
gateway from smokeless tobacco use to smoking by Dr. Brad Badu 
also be entered into the record.
    Mr. Pallone. I am just taking a minute here because I 
noticed they are pretty extensive and I just want to make 
sure--OK. Is that everything?
    Mr. Buyer. Yes.
    [The information appears at the conclusion of the hearing.]
    Mr. Pallone. Without objection, so ordered.
    Mr. Buyer. Thank you.
    Mr. Pallone. Next is our vice chair, Ms. Capps.
    Mrs. Capps. Thank you, Mr. Chairman.
    I want to thank our witnesses for their excellent 
testimony. I particularly want to thank the second panel for 
your patience in waiting through this first one, which is our 
process here in this subcommittee.
    I have a question for each of you and I am going to start 
with Dr. Pechacek. I was particularly alarmed by your statement 
during your testimony that the perceived risk of harm from 
smokeless tobacco has decreased, actually decreased among 
teenagers. You know, we have taken such, I think, quite 
significant steps through enactment of recent health reform 
legislation to invest in greater wellness and prevention 
strategies as a whole. We have this opportunity with some of 
these new parts of the reform legislation. I would like you to 
give us some advice of what strategies we could

take in our local communities through our health clinics 
expansion and so forth to reverse this very alarming trend.
    Mr. Pechacek. Comprehensive State and local tobacco control 
programs that we have defined in our multiple CDC documents 
give evidence-based approaches that have been shown to be 
effective in reducing tobacco use overall as well as smokeless 
tobacco. These approaches change environmental cues in ways 
that make tobacco use in any form less acceptable and quitting 
easier. These types of programs include educational strategies 
as well as public policy changes that send a clear message to 
youth that smokeless tobacco along with all product use are 
dangerous to their health. On a concrete level, CDC has been 
communicating a clear message that there is no safe form of 
tobacco use and that any tobacco product is hazardous to 
health. For example, the CDC has recommended since the mid-
1990s that schools implement 100 percent tobacco-free policies 
that eliminate all tobacco products by faculty, staff and 
students including smokeless tobacco on school grounds, at 
school events including sporting events. CDC is closely 
monitoring trends in the smokeless tobacco use and how 
different marketing campaigns are impacting youth and providing 
this information to our States so they can more effectively 
provide informational campaigns that can turn around this 
negative trend.
    Yes, we are concerned about this downturn in perceived risk 
which is in 8th, 10th and 12th graders with the largest drop in 
10th graders. This indicator has been a very reliable leading 
indicator of this type of question, not only for smokeless 
tobacco but for cigarettes, alcohol, marijuana and other 
behaviors. Therefore, this downturn does indicate reason for 
concern.
    Mrs. Capps. Thank you. I have a feeling our second panel is 
going to elaborate on some of the specific ways that we can 
really get this message across at such a key age group and 
their habits of course will impact their health for a lifetime. 
I appreciate that from the CDC.
    Now, a question for you, Dr. Winn. During our committee's 
debate on giving the FDA authority to regulate tobacco 
products, some of our colleagues were advocating policies 
promoting this so-called lower risk of tobacco products. I 
think you heard some of that voiced today as well. In your 
testimony, you clearly outline that transitioning from 
cigarettes to smokeless tobacco actually contributes to more 
negative health outcomes in many cases, and just for the 
record, I would like to have you elaborate a bit more on this 
strategy because this is a myth that keeps rearing its head, 
and doesn't it make more sense to provide comprehensive 
education about all tobacco kind of in line with what Dr. 
Pechacek was saying to include information about why it is all 
dangerous and how to be empowered to resist and reject it?
    Ms. Winn. Right. Certainly the evidence to date, and it is 
a growing literature, indicates that using both behaviors 
increases risk of several chronic diseases, and that is a great 
concern that we have with regard to some of the trends in youth 
using both products together. This is a very concerning trend 
that we have. Is there an additional specific question?
    Mrs. Capps. No. Well, I think you are highlighting the 
goals for having comprehensive education. In other words, if 
you are talking about stopping smoking of cigarettes or never 
starting with young people, you want to also make sure that 
they don't see an alternative. It all has to be presented at 
one time. Otherwise they are going to fall prey because the 
targeting of advertising, and we have seen this with cigarettes 
as well, is so insidious with young people, the targeting of 
just the right images using athletes, which is understandable. 
They are heroes. My grandkids look up to them. If they even see 
them without even saying a word chewing, that will be in their 
subconscious to be tempted to try, so I appreciate that very 
much.
    Thank you. I yield back.
    Mr. Pallone. Thank you.
    The gentlewoman from Tennessee, Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. I appreciate that.
    I have got just a couple of questions that I want to direct 
to the two of you together, and again, thank you for your 
patience for this morning. The CDC's youth risk behavior survey 
measures smokeless tobacco among high school students. That is 
correct, right?
    Mr. Pechacek. Yes, 9th through 12th graders.
    Mrs. Blackburn. OK, and it also publishes data for 
individual States and a number of major cities, and as we were 
getting ready for the hearing, I looked at the data that was 
there for several Major League Baseball cities including 
Baltimore, Boston, Chicago, Detroit, Houston, L.A., Miami, 
Milwaukee, New York, Philadelphia, San Diego, San Francisco and 
Washington, D.C. I wish that Nashville or Memphis was included 
in that list but it is not, but we will talk about that another 
day. So given the topic of this hearing and what we were going 
to be discussing and looking at your survey, I found something 
very interesting. Every single one of those major league 
cities, every one of them, every single one of them, believe it 
or not, had a teenage smokeless tobacco rate that was below the 
national average, and I found that so interesting. The major 
league cities have a smokeless tobacco rate that is below the 
national average. And the same is true when you go back and you 
look at the previous CDC surveys, which are published every 2 
years. It was true in 2007, it was true in 2005, it was true in 
2003, it was true in 2001. You know what? There is not one 
single exception, not one. Every single Major League Baseball 
city in every single year where the CDC survey measured, it was 
lower than the national average. So if baseball players are 
having such a dramatic impact on teenage smokeless tobacco use, 
why would evidence of this impact only occur in places where 
there is no Major League Baseball team? I want to know if there 
was any finding in your work that would shed some light on 
that, and I would love to hear from both of you on that.
    Mr. Pechacek. Thank you for your question. Yes, there is 
evidence that will help explain that.
    Mrs. Blackburn. Wonderful. Elaborate.
    Mr. Pechacek. First of all, rates of smokeless tobacco use 
traditionally have been higher in more rural and other parts of 
the country. We can provide you more detail on the geographic 
breakdown. Additionally, the rates of smokeless tobacco use 
among African American populations is much lower than overall 
in other demographic groups. So those two factors alone just by 
the demographics of the major cities that you have mentioned 
result in a differential.
    When we are looking at the influence of any factor, what we 
are looking at is the exposure. One of the main things that we 
have to be aware of in the exposure is the primary exposure is 
not necessarily attending the baseball games but watching them 
on the media so that the geographic distribution of the imagery 
exposure is quite different than the location of the stadium. 
Now, we do not have any published studies with respect to 
number of minutes watching Major League Baseball and its impact 
but the data that has been done will show that it is the youth 
that are paying attention to baseball that may be at the 
greatest risk.
    Mrs. Blackburn. OK. So let me ask you this. Looking also at 
your surveys, you see that the use went down from 11.5 in 1993 
to 7.9 in 2007 and from 20.4 among teenage boys the smokeless 
tobacco rate has dropped from 24.4 in 1993 to 13.4 in '07. So 
what factors have been working so well in recent years? What is 
it that is being done in recent years that is causing young 
people to choose not to use smokeless tobacco? Is it education? 
Is it parents? Is it outreach? Was it the tobacco settlement 
agreement? What do you think has helped to spur that kind of 
drop in usage?
    Mr. Pechacek. First of all, the types of programs that work 
for smokeless tobacco are very similar to those that work for 
preventing all tobacco use, cigarettes and other forms. What we 
have found is that the comprehensive types of programs that 
focus on public policy change such as smoke-free environments 
and other types of things that are sending a clear message that 
all tobacco use is harmful is reaching youth. The programs in 
the mass media are particularly effective that are providing 
broad messages about the risk of tobacco use such as the legacy 
media type of campaign as well as the State-specific campaigns. 
All of those types of things are effective in preventing 
cigarette use and smokeless tobacco use. One of the things that 
is of concern is that while we have been seeing a decline in 
both cigarettes and smokeless tobacco use through about 2005, 
the data that will be published this summer from the youth risk 
behavior shows a reversal of those trends that you were citing, 
and then when you look at all the data points including the 
2009 data point that will be released this summer, that the 
rates of smokeless tobacco use among high school males has 
reversed and is now increasing with the point of deflection or 
the statistical point of change being 2003. So for a number of 
years the pattern in multiple surveys is showing an increase of 
smokeless tobacco use among youth in general, particularly 
males, particularly white and Hispanic males.
    Mrs. Blackburn. Thank you very much. I am over my time. I 
will yield back. Thank you, Mr. Chairman.
    Mr. Pallone. Thank you.
    The gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I have a couple of 
sort of random questions here.
    Just following up on the surveys, the cities that my 
colleague mentioned where the rate of smokeless tobacco use is 
lower than the national average, is it however the case that if 
you looked at the use among the two populations you cited in 
Hispanic youth and non-Hispanic white youth that in those 
cities you would find evidence of this trend of an increase 
even if it wasn't carrying a statistic above the national 
average?
    Mr. Pechacek. The individual data will be released this 
summer with respect to all of the locations including the 
national data. What we are seeing in the overall pattern is 
yes, across the Nation in non-Hispanic white and Hispanic youth 
we are seeing the uptick. This uptick has been going on for 
several years now. With respect to patterns in specific 
communities, we have not had those levels of analyses yet but 
we certainly are willing to look into that.
    Mr. Sarbanes. So it is at least possible that even though 
the increase hasn't taken the statistic above the national 
average in some of those places cited that the fact that there 
is an increase could be connected to the use by role models 
such as Major League Baseball players.
    A lot of the discussion is focusing on Major League 
Baseball, you know, responsibility to implement restrictions on 
the use of smokeless tobacco because of the role model status 
that the players have. This isn't really a question, it is just 
kind of an observation, and I guess the second panel is in a 
position to speak to this better. I would just think that the 
owners and team management and the league itself would be 
interested, given the kind of investments they make in their 
players financially and otherwise to put these kinds of 
limitations, regardless of the impact it is having on youth or 
other members of the public, given the litany of effects that 
you have been able to describe today in terms of how harmful it 
can be and how quickly the conditions that it causes can 
develop. That is the other thing that is striking when you look 
at the testimony that you have presented, so I just want to 
introduce that theme here that it is not simply about the 
example that is being set that ought to cause us to call upon 
Major League Baseball. I would just imagine that as a matter of 
good practice and good business management on the part of the 
league and the owners that they would want to institute this. 
It has been done at the minor league level so somebody has 
figured out that it is not a great thing because it is not the 
role model aspect of the minor league baseball players that led 
to that ban being put in place. It must have been some other 
consideration like the health of the players. So I just don't 
understand why that wouldn't apply to the major league players.
    Let me ask you, is the restriction on advertising on 
television and so forth that applies to smoking tobacco, does 
that apply as well to smokeless tobacco?
    Mr. Pechacek. The new FDA legislation signed last year 
extends the restrictions more completely to smokeless tobacco.
    Mr. Sarbanes. OK. So when you think about--I mean, I was 
reading some of the testimony, one World Series game somebody 
calculated there was 9 minutes of tobacco use that would have 
been viewed by someone who watched the whole game on the part 
of the players. That is like a giant loophole, isn't it, in 
terms of being able to distribute this kind of imagery over the 
airwaves? Is it fair to characterize it that way?
    Mr. Pechacek. I believe our next panel is going to go into 
that in more detail, but in general as we have reviewed in 
recent Surgeon General reports from 1994 on, those types of 
imageries do reach youth and do have an impact.
    Mr. Sarbanes. And more sinister, arguably, because it is 
more kind of just woven into the fabric of what they are seeing 
than a full-force advertisement might be.
    Thank you, and I yield back my time.
    Mr. Pallone. Thank you, Mr. Sarbanes.
    I guess that concludes our questions for the first panel, 
but we do want to thank you, and you may get questions from us, 
written questions, within the next 10 days that we will ask you 
to get back to us as soon as you can, so thank you very much.
    If I could ask the second panel to come forward and see 
where your nametags are there. Take your seats and we will 
proceed. Let me introduce each of you. First on my left is 
Gruen Von Behrens, who is from Stewardson, Illinois. Thank you 
for being here. And then we have Robert D. Manfred, Jr., who is 
executive vice president of labor relations and human resources 
for Major League Baseball. And then we have David Prouty, who 
is chief labor counsel for Major League Baseball Players 
Association. And then the famous, it says here Joseph Henry, 
but Joe Garagiola, Jr., who is a Major League Baseball 
announcer and a former Major League Baseball player. And then 
finally is Gregory Connolly, who is a professor of the practice 
of public health at Harvard University. I again thank all of 
you for being here today. Try to keep the comments to 5 
minutes. Your statement becomes part of the record. Of course, 
you can submit additional written statements or comments if you 
will after you leave here today.
    So I will start with Mr. Von Behrens. I hope I am 
pronouncing that correctly.

 STATEMENTS OF GRUEN VON BEHRENS, STEWARDSON, ILLINOIS; ROBERT 
D. MANFRED, JR., EXECUTIVE VICE PRESIDENT, LABOR RELATIONS AND 
  HUMAN RESOURCES, MAJOR LEAGUE BASEBALL; DAVID PROUTY, J.D., 
CHIEF LABOR COUNSEL, MAJOR LEAGUE BASEBALL PLAYERS ASSOCIATION; 
  JOSEPH HENRY ``JOE'' GARAGIOLA, SR., MAJOR LEAGUE BASEBALL 
  ANNOUNCER, FORMER MAJOR LEAGUE BASEBALL PLAYER; AND GREGORY 
 CONNOLLY, M.P.H., D.M.D., PROFESSOR OF THE PRACTICE OF PUBLIC 
                   HEALTH, HARVARD UNIVERSITY

                 STATEMENT OF GRUEN VON BEHRENS

    Mr. Von Behrens. That is correct, and thank you for 
allowing me to be here today. I appreciate the opportunity and 
I really hope that this message I bring to you will make you 
all a lot smarter on about what tobacco can do to you.
    My name is Gruen Von Behrens and I am a national 
spokesperson here today on behalf of Oral Health America and 
NSTEP and also myself. I travel throughout the United States as 
a motivational speaker to youth about the dangers of tobacco 
use. I have currently been in 46 of the 50 States of America, 
every province of Canada and spoke to over 2 million kids 
across North America about this topic. I work with different 
collegiate and minor league athletic programs. I work with 
different media across the United States. So I have a lot to 
say when it comes to this topic.
    Now, first things first. I always apologize to my viewers 
because I understand I can be kind of hard to understand. I 
have had 34 surgeries to my mouth and to my neck to get rid of 
the cancer I had. And not everything I say always comes out the 
way I want it to, so I apologize to the panel.
    Nobody tells me that I have to do this. I didn't get in 
trouble in my home State of Illinois and they are like, all 
right, Gruen, for your punishment, you have to go out in 
public, show people your face and tell them that tobacco did 
that to you. That is not the reason I do this. I don't do this 
as an authority figure as somebody who is going to preach to 
anybody for using a tobacco product because me as an ex-tobacco 
user realizes how powerful the addiction is on its victims. I 
am not out there knocking cigarettes out of people's hands and 
I am not knocking two hands out of their back pockets. I want 
people to have a fair choice with their life. I want my viewers 
to be able to look at my face and to my words and my story, 
understand what I have been through so they can make an 
educated and thoughtful choice for themselves about whether or 
not they want to take up this position or not.
     I come from a very small town in the Midwest, 750 people 
in my hometown, and that is counting farm animals and small 
dogs so it is a very rural area, and as a part of the culture 
of our area, we use tobacco. My grandfather used tobacco. My 
uncle used tobacco. Why do these two men who loved me dearly 
and helped bring me up offer me a product that could hurt me 
this bad? So I was very naive that this could happen to me. And 
I hope that by traveling around the country and educating youth 
about the dangers of tobacco, not only youth but parents, 
certain forms of government, all different forms. You know, we 
are sitting here with Major League Baseball and I think it is 
great to be part of baseball. I think that as a baseball player 
growing up, and I idolized the people I was watching on TV and 
that led a small part to my tobacco use but not to the main 
reason why I used tobacco. Across the United States there is a 
culture out there where people pick up these habits at a very 
young age because just being naive to what this product can do 
to you. The amount of kids and people that I see victimized by 
this drug is phenomenal. You know, I see 8-year-old kids using 
spit tobacco. I see mothers wiping their babies' gums with spit 
tobacco wrapped in a nylon stocking to cure a toothache. I see 
10-, 11- and 12-year-old kids coming up to me after my 
presentation and handing me their chew and saying I don't want 
to use this no more because I didn't know that that could do 
that to me.
    As I said, I really appreciate the opportunity to be here 
today. I hope that this message brought to America can educate 
them about the dangers of tobacco. I see our government 
sometimes almost telling us that spit tobacco is a safer 
alternative to cigarettes, and numerous States, they raised the 
taxation on cigarette sales but they will not raise the 
taxation on tobacco sales. So as a whole, is that them telling 
us that this is a safer alternative when I know it is not? 
Every bit of spit tobacco that somebody puts in their lip, into 
their oral cavity has the same cancer-causing ingredients in it 
as three to five cigarettes smoked. So they are hurting their 
oral cavity. This is as bad as whether they would be if they 
ingested a cigarette. And then we talk about harm reduction. 
Harm reduction. I laugh at the face of harm reduction, guys. 
You get lung cancer, you get oral cancer. What is the 
difference? You have still got cancer. You still have a very 
deadly disease that you have to fight for your life to fix.
    I stared using tobacco at the age of 13. At 17 I was 
diagnosed with a full-blown oral cancer. So often people come 
up to me and say oh, Gruen, spit tobacco only hurts the person 
using it. I wish each and every one of you in here who are 
interested, seriously interested in this cause, to have been 
with me the day that my mom found out I was sick, the day my 
mom sat in that doctor's office with me and bawled her eyes out 
because her son had been diagnosed with this disease because of 
trickery and misconception that this thing was a safe thing to 
do, and the impact that had on my mother--I mean, I had people 
come up and say to me that it only affects the person using it. 
That is not right. It affects everybody in the community. It 
affects each and every one of us. People are getting sick from 
this. As the government, do what it takes to fix this problem. 
I don't care if it baseball. I don't care if it with health 
care. Mr. Barton says this isn't a very important thing, we 
ought to worry about health care. I think we are worrying about 
health care, guys. We are starting on this level. All right? 
Let us make it this level.
    Thank you for your time. I appreciate the opportunity to be 
here.
    [The prepared statement of Mr. Von Behrens follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.043
    
    [GRAPHIC] [TIFF OMITTED] T6022A.044
    
    [GRAPHIC] [TIFF OMITTED] T6022A.045
    
    Mr. Pallone. Thank you, and let me thank you also. I didn't 
realize how often you go around and how many States and how 
much you have become a spokesman for this, and we really 
appreciate that. Thank you.
    Mr. Manfred.

              STATEMENT OF ROBERT D. MANFRED, JR.

    Mr. Manfred. Chairman Pallone and members of the committee, 
thank you for the opportunity to be here to address our shared 
commitment to the reduction of the use of smokeless tobacco 
products. I would like briefly to review Major League 
Baseball's past and ongoing efforts to reduce or eliminate the 
use of such products by players, as well as the legal framework 
within which Major League Baseball's efforts have been 
undertaken.
    For almost 2 decades, Major League Baseball has worked on 
multiple fronts to reduce the use of smokeless tobacco products 
and educate members of the baseball community accordingly. The 
centerpiece of our effort is the Minor League Tobacco Policy, 
which was issued by Commissioner Selig in 1993. That policy 
bans the use and possession of all tobacco products by club 
personnel, including players, n minor league ballparks and 
during team travel. We believe that our efforts at the minor 
league level are crucial because players must learn at an early 
age to avoid these product. The minor league policy is 
displayed in all minor league clubhouses, and each minor league 
player contract requires the player to represent that he is 
aware of the policy and agrees to its provisions. To ensure 
compliance with the policy, Major League Baseball's resident 
security agents conduct roughly 100 random security inspections 
of minor league ballparks annually. Players and field managers 
who violate the policy are subject to game ejection and incur 
substantial monetary penalties.
    Major League Baseball has also administered a formal policy 
regarding tobacco products at the major league level for well 
over a decade. Pursuant to the major league policy, clubs may 
not permit the distribution of tobacco products in major league 
clubhouses. The major league policy likewise encourages clubs 
not to permit club personnel, clubhouse attendants and the 
like, to buy tobacco products on behalf of players.
    I should also point out that club personnel are barred from 
smoking when in uniform in view of spectators, and contrary to 
a suggestion that was made in the earlier panel, our athletes 
are not allowed to participate in tobacco advertising while in 
uniform, and I am not aware of a single major league player who 
endorses tobacco products publicly.
    Our efforts to reduce the use of tobacco products extend 
beyond formal disciplinary measures and into education and 
treatment. To that end, the minor league policy encourages 
field managers to hold tobacco education meetings with their 
clubs and waives fines for first-time offenders who complete 
cessation counseling programs that are provided by the club's 
employee assistance professionals. Major League Baseball has 
also collaborated extensively with its partners to raise public 
awareness.
    In 1994, Major League Baseball helped establish the 
National Spit Tobacco Education Program to curb the use of 
smokeless tobacco products. Major League Baseball has provided 
NSTEP and its partners with over $100 million in cash 
contributions, television exposures and other support to 
conduct public service activities and announcements, which 
featured players including stars like Hank Aaron and Derek 
Jeter.
    Within the baseball community, NSTEP has served major and 
minor league players via numerous education and treatment 
options. These options include oral examinations, brush 
biopsies, educational seminars, cessation programs and training 
for club employee assistance professionals. Through 2003, Major 
League Baseball, at times on conjunction with the Major League 
Baseball Players Association, sponsored NSTEP programs with the 
assistance of grants from not-for-profit organizations 
including the Robert Wood Johnson Foundation. Clubs continue to 
administer oral examinations and smokeless tobacco education 
programs as part of their annual spring training activities. 
Highmark Blue Cross Blue Shield, the insurance provider for 
minor league players, also conducts an annual spring training 
presentation for players that addresses tobacco cessation 
options.
    Largely because of these efforts, the use of smokeless 
tobacco products has declined substantially in baseball over 
the last 2 decades. Commissioner Selig nevertheless remains 
committed to exploring additional opportunities in conjunction 
with the Safety and Health AdvisoryCommittee, a joint committee 
of baseball and the MLBPA. Last November, at Commissioner 
Selig's urging, the committee hosted a presentation on 
smokeless tobacco use prevention by Dr. Ashok Shaha, a head and 
neck surgery specialist from Memorial Sloan-Kettering Cancer 
Center. During the 2010 season, the Commissioner's Office will 
be surveying players to develop other educational and treatment 
programs.
    As we carry these initiatives forward, however, it is 
important for the Committee to bear in mind the legal framework 
that applies to smokeless tobacco. Like drug testing, the 
regulation of player use of tobacco products is a mandatory 
subject of collective bargaining. But unlike performance-
enhancing substances, smokeless tobacco products are legal in 
all 50 States and for sale to and consumption by adults. And 
even the most ardent critics of smokeless tobacco use as a 
public health matter would argue that it compromises the 
competitive integrity of our game in a manner analogous to 
performance-enhancing substances. While an outright ban on the 
use of smokeless tobacco in the major leagues is a laudable 
goal, it will have to be pursued against the backdrop of these 
legal realities.
    I thank you for your time.
    [The prepared statement of Mr. Manfred follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.046
    
    [GRAPHIC] [TIFF OMITTED] T6022A.047
    
    [GRAPHIC] [TIFF OMITTED] T6022A.048
    
    [GRAPHIC] [TIFF OMITTED] T6022A.049
    
    [GRAPHIC] [TIFF OMITTED] T6022A.050
    
    [GRAPHIC] [TIFF OMITTED] T6022A.051
    
    Mr. Pallone. Thank you, Mr. Manfred.
    Mr. Prouty.

                   STATEMENT OF DAVID PROUTY

    Mr. Prouty. Thank you. Chairman Pallone and members of the 
committee, thank you for the opportunity to testify today. My 
name is David Prouty. I am the chief labor counsel for the 
Major League Baseball Players Association. I won't repeat 
verbatim my written testimony but I just want to make a few 
points based on the testimony and also what we have heard 
today.
    First, no one disputes the health risks of smokeless 
tobacco. You have heard the medical evidence today. You will 
hear more. And you have heard the compelling testimony of Mr. 
Von Behrens. The players association completely agrees that 
smokeless tobacco poses a huge health problem for this country.
    Second, and it is for that reason that the players 
association has long discouraged its members from using 
smokeless tobacco. We have participated in educational programs 
to alert the players and the public to its dangers. For 
players, we have run educational seminars and offered medical 
screenings in spring training. We have participated in the 
NSTEP program that Mr. Manfred referred to, to offer cessation 
workshops. We have worked with Mr. Garagiola, in fact brought 
him to address a meeting of our executive board to talk about 
this topic.
    For the public, we have worked again through NSTEP on 
various outreach programs including the taping of a series of 
public service announcements involving prominent players 
including Derek Jeter, Hank Aaron and also Jeff Bagwell and 
Alex Rodriguez.
    We have also embarked on a new program with the Partnership 
for a Drug Free America called Healthy Competition, which is 
focused on helping parents and children make smart decisions 
regarding health and nutrition. The players want to help kids 
choose what to do, not just tell them what not to do. Through 
this program, we hope to educate young people, both athletes 
and non-athletes, to make smart choices when it comes to 
fitness, supplements, drugs, alcohol and tobacco, including 
smokeless tobacco.
    Third, the obvious question, why isn't smokeless tobacco 
banned in baseball? Remember that smokeless tobacco is a legal 
product available for all adults to purchase everywhere in the 
United States but we can and we will educate players as to why 
they should not use it. There is a tension here because many 
players do not think they should be banned from using a product 
which Congress has so far deemed to be legal. If Congress were 
to ban smokeless tobacco, the players association would not 
object and might even support such a measure. Would the players 
association agree to ban smokeless tobacco in baseball as part 
of our next round collective bargaining negotiations? Well, we 
are a union. We pride ourselves on having a democratic 
structure and a democratic process, much like this Congress. It 
is up to the players, the members of this union, to decide what 
issues they want to bring to the table. I can guarantee you 
that I will bring back to the players the concerns that have 
been raised here today, and I am sure more will be raised, back 
to the membership of the union and that this issue will get a 
full airing. That is how a union works and that is how 
collective bargaining works.
    Lastly, since this is the Health Subcommittee, I want to 
raise with you another health hazard that affects our members 
and the public at large, and that is the issue of dietary 
supplements. Simply put, the existing regulatory scheme is not 
working. There are many quality products on the market but 
there are also many that contain dangerous ingredients that 
aren't labeled as such. In fact, the Food and Drug 
Administration just released a list of over 100 dietary 
supplements that can be bought over the counter that contain 
performance-enhancing substances which are banned under 
baseball's drug-testing program. Our members have suffered the 
consequences by testing positive and receiving suspensions as a 
result of ingesting these products that contain such unlabeled 
substances. We realize this may be a politically sensitive 
issue for some on this committee, but without your help, 
millions of Americans, young and old, athletes and non-
athletes, will continue to be at risk from taking supplements 
that contain steroids, pharmaceuticals and other dangerous 
substances. We hope that you will give this issue as well the 
attention that it deserves.
    Thank you for your time. I will be happy to answer any 
questions at the conclusion.
    [The prepared statement of Mr. Prouty follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.052
    
    [GRAPHIC] [TIFF OMITTED] T6022A.053
    
    [GRAPHIC] [TIFF OMITTED] T6022A.054
    
    [GRAPHIC] [TIFF OMITTED] T6022A.055
    
    [GRAPHIC] [TIFF OMITTED] T6022A.056
    
    [GRAPHIC] [TIFF OMITTED] T6022A.057
    
    [GRAPHIC] [TIFF OMITTED] T6022A.058
    
    Mr. Pallone. Thank you.
    Mr. Garagiola.

        STATEMENT OF JOSEPH HENRY ``JOE'' GARAGIOLA, SR.

    Mr. Garagiola. Thank you, Chairman and the committee and--
--
    Mr. Pallone. I think your mic, you have to bring it closer 
and--there we go.
    Mr. Garagiola. I have never been around a microphone 
before. I don't know what to do. I just holler.
    You are not going to hear a bunch of numbers from me, and 
don't start the clock yet because I have got all kind of notes 
here on my papers. These guys come with typewritten sheets and 
all that, but I made some notes are listening to this. Six 
hundred and fifty million dollars, when we started out with--
and I hate to hear that word ``smokeless.'' That belongs to the 
tobacco companies. I could use a word that would get me kicked 
out of a game when I hear that, but I will not. I watched 60 
Minutes like you did and it was scary.
    Let me just throw a few things out. In 1993--and I keep 
hearing numbers and it is true. In 1993, 21 percent of the 
players in the World Series used tobacco, spit tobacco. That is 
what I call it, spit tobacco. That is what it is. In 2000, 7 
years later, it was zero. Why was that? I was in the trenches 
with a bunch of guys who went with me, and I called the 
producers. I said why do you guys stay on that shot, get off 
that shot. I called the guys who--the presidents of the 
networks. Lenny Dykstra, who was the poster boy, just to give 
you a story, I went up to him and I said Lenny, why do you use 
that garbage, what did they give you? Did they give you any 
money? He said no, I have to have it. Why do you have to it? I 
just have to have it. And I said just tell me you won't use it 
during the World Series. I will talk to my guys at CBS and we 
will make an impact. No, I can't do that. Lenny Dykstra has 
quit using it, guys, because he ran into a problem. So I don't 
know about numbers and all that kind of stuff but I just want 
you to know that that is where it got started.
    Six hundred and fifty million dollars--when I was with 
NSTEP, I made speeches across this country. I will never forget 
going into Connecticut with the attorney general, and that is 
when the tobacco company, they were going to use it as a safe 
alternative to cigarettes. Oh, come on. Give me a break. I am 
not going to go through all this. I am just going to tell you 
some of the things that I have learned.
    In my day, we called it chew. I chewed. Why did I chew? 
Because the others players chewed. I thought it was part of 
baseball, and that is what it is all about. I mean, the things 
that you do because the other guys do it. They used to give us 
salt tablets. Salt tablets, they used to give us. I think they 
were trying to kill us is what I thought they were trying to 
do. But it has improved so much, and now, I got so much I want 
to say I am choking on myself.
    Like many other players, I thought being a major league 
player, you had to chew. You watch those guys, Lon Warnicke, 
who I grew up with, that kind of--I chewed until my daughter 
came home from school one day and said Daddy, are you going to 
die? I said sweetheart, sure I am going to die, we are all 
going to have to die. She said I mean are you going to die. I 
said yes, but not now. I am not looking forward to it. And she 
said no, and she had that look in her eyes. And I said 
sweetheart, why are you asking me? And she said because we're 
studying about tobacco and we are studying about lungs and they 
said if you use tobacco you are going to die. I stopped. I 
stopped. I wish you guys could walk with me on a field because 
I have been called everything from a Nazi anti-tobacco chew 
zealot. I mean, come on. This is what these ballplayers do. I 
mean, forget the numbers and all that. Get in the trenches and 
watch them. And with the minor leaguers, baseball has done a 
great job, and baseball is taking a beating here. They really 
have, and I am sitting next to the guy that I wanted to romance 
here, put some Chapstick on and get him to do the job. But to 
me, in my 20 years of working to spread the word about the 
dangers of smokeless tobacco, many of my friends, Jack Crowl, a 
coach, he lost half his tongue like my friend Gruen. I have a 
tape here, and I am all over the place I know. I am going to 
tell you about this tape. This is Gruen Von Behrens' tape, and 
if any of the people on the committee would like to have a 
copy, we will get it to you. I will get it to you. The 
Diamondbacks paid for this. We didn't have any of that 650 
million. There is a booklet that Bud Selig, the commissioner, 
gave out to people, and I mean, it is nothing but little 
cartoons that kids can see. Here is one. It is easy to quit 
smoking cigarettes, you just take them out of your mouth. No, 
Daddy, let us make him a nonsmoker--he is working on a 
snowman--he will last longer. I mean, I was begging everybody 
to help us, and they did. But I lost Jack Crowl, lost part of 
his tongue, couldn't talk, and in a year he was dead. Bill 
Tuttle--Bill Tuttle died one piece at a time. Bob Leslie, a 
high school coach--and I never asked anybody to make a tape or 
a DVD. Bob Leslie called and he said Amy and I, we want to make 
a tape, and we went out there and made this tape, and I will 
never forget when Bob Leslie died, I spoke at his funeral, and 
here was Amy right where that chair is, the second chair, 
holding a baby, and I said to myself, in her 20s, holding a 
baby that can't even stand up by himself or walk, she should be 
enjoying it, and instead of being a mother and a wife, she is a 
widow. She hadn't even seen 30 years old. They all died too 
soon.
    That lit the fire, guys. I want to tell you, that lit the 
fire, and that is why I agreed--in 1994, that is how long I 
have been going out there--and I never got paid a nickel. Never 
got paid a nickel. I didn't want to get paid. If they wanted to 
hear my speech, they had to pay my flight there, and I am going 
to tell you, sitting in the middle seat sucks. That is not in 
the script, by the way. But anyhow, I agreed to chair the 
National Spit Tobacco Education Program, and we had some money 
from the Robert Wood Johnson Foundation. I worked with them and 
now I haven't heard from anybody. It is almost like I got 
leprosy.
    Anyhow, I lobbied Major League Baseball to ban the 
distribution of tobacco products in major league clubhouses, a 
rule that is still in effect, and I am going to tell how that 
started. Rob knows it. I went to the Diamondbacks and I said to 
them, you guys hired the clubhouse guy, tell him he can't put 
that tobacco there and don't let the tobacco companies give you 
free tobacco, and kind of looked at me and he said what do you 
mean. I mean clean it out, let them stop, make it inconvenient 
to buy the tobacco, which they did, and that was good. But you 
know what? When the kid comes up from the minor leagues, he 
knows he shouldn't use it but I see it. The first thing they 
know, they don't even pick the bat first, they throw a chew in 
their mouth. We have to educate, educate, educate, and 
Commissioner Selig is behind it 100 percent.
    Hey, U.S. tobacco, if you look at it, they don't call 
themselves a U.S. tobacco company anymore, they are a U.S. 
smokeless tobacco company. Now, if that isn't a subtle 
commercial, I don't know what is.
    I have letters from Commissioner Selig and Donald Fehr both 
who are backing what I am doing. Why can't baseball and the 
players association right here get together and ban it? Take it 
off the field. I think it was Mr. Waxman who said something 
about we don't see a player going out there with a cigarette in 
his hand. I know where he got that line, when I testified 
before his committee. I mean, Arnold Palmer used to play golf, 
walk on the green, flip a cigarette and putt, but we don't have 
that in baseball. Tobacco is tobacco is tobacco. Get together. 
The players association, baseball, get together, guys, ban 
tobacco and anyone who uses it is penalized. I don't care if it 
is a suspension. I don't care if it is fines or what. Get it 
out of our game. It is a great game, greatest game going. I 
have heard all kinds of things about it.
    I almost forgot the most important thing. We have a club in 
Arizona that I went to the Diamondbacks and I said you know, 
why don't we let the kids in free. I wanted to call it Let's 
Kick Their Cans, and this is what Bill Keane did for me. We 
call it the No Chew Crew, and they get a red tee shirt with No 
Crew Chew and they sign a pledge that they are not going to use 
tobacco. Well, you don't know if they are going to use it or 
not but they are going to be aware of it, but they get into the 
game free if they come chaperoned.
    This is Gruen Von Behrens' tape. We got this in every 
school in Phoenix, Arizona. How I would love to see that in 
every school in Arizona, the whole State.
    Spit tobacco. I would like the players--and boy, do I get 
it from them--who are role models, and I don't care what 
anybody says, whether they agree, Charles Barkley 
notwithstanding, they are role models. I want them to quit 
carrying a can of dip in their uniform pockets and especially 
where the youngsters see them. I just had an incident last 
Saturday. I did a broadcast. I am just getting out of surgery. 
I had three major surgeries. I didn't work at all last year and 
I was in the hospital all of 2009, but when I got this 
invitation, that is how important this is to me. I was in the 
Diamondback clubhouse and one of the players, I don't want to 
name him, he is sitting there with a laptop and he is dipping. 
I go around the corner and they got a kitchen now. We never had 
a kitchen. If you had a bologna sandwich, you were lucky. These 
guys sit there and watch Days of Our Lives or whatever instead 
of taking batting practice and then they wonder why they can't 
hit and they are going to be broadcasters. I saw him using that 
stuff. I said why are you using it now? Oh, it feels good. 
Until they find something. I can name players. Curt Schilling, 
we took him in for a brush biopsy that Rob was talking about. 
He came out, he was as white as this towel because they found a 
lesion and he had to have it biopsied. Curt Schilling, who 
pitched in the World Series, I don't know if he's using again. 
He may or may not. But it is a deadly, addictive habit, and it 
is an uphill battle, this spit tobacco, and I am going to tell 
you why. Nobody has mentioned it, but I will.
    I have made speeches before the firefighters, police 
officers, anyone who works with the public, they can't smoke. 
They can't smoke. So what do they do? They use spit tobacco. 
And when I told them about it and the reaction that I got was 
tremendous, and they start early because the tobacco companies 
advertise to them at a very early age. These companies mislead 
you. You want to talk about advertising? Here is a catalog that 
they put out, OK? I know you have got a bunch of books there, 
Chairman. I will give you this if you want it. In fact, one of 
them got me mad. Brad Roudeaux--Brad Roudeaux is from the 
University of Alabama Birmingham. He is on the payroll of the 
tobacco companies. So if you want to burn it, you can burn it. 
You have my permission. Here is a catalog of gifts. Here is a 
pool table. Do you know how many lids you need to get this pool 
table? Ten thousand lids. You use 10,000 cans of tobacco, you 
would have cancer of the feet. And, you know, they talk about 
cowboys and westerns and all that. They do that.
    We were at a NASCAR--one of the people here talked about 
NASCAR. I went there and we put a sign up there, smokeless does 
not mean harmless. They came and said that it was insulting to 
them. I said insulting? I can't believe it. They made us take 
it down.
    It is not a safe alternative to cigarettes. Fewer people 
die from it. That is the song of the tobacco companies. You 
know what it is like? And this is what I said to the attorney 
general in Connecticut. It is like saying don't jump out at the 
50th floor, what are you nuts? Jump out of the 30th floor. You 
got 20 floors on your side. The result is going to be the same. 
It is a dangerous, deadly habit and baseball can't solve the 
problem by itself. We need help. The players association--
Commissioner Selig encourages everything that I do. Donald 
Fehr, he is gone now, right?
    Mr. Prouty. Still around but he is retired.
    Mr. Garagiola. But you are here.
    Mr. Prouty. I am here.
    Mr. Garagiola. OK. You go back with this message.
    Let me just say this. We need truth in advertising. That is 
important. I can't think of the Congressman's name, he was from 
California. He called me and he said he is going to have a 
press conference in California and could I get a ballplayer 
because he wants to have stronger words on the can, and I 
wasn't too smooth with him and I said is this a photo op or do 
you really mean. He said no, I am really going to do it, and I 
said what are you going to do. He said make a stronger message 
black print, big print. I said OK. We came out there. A kid 
named Mike Watson from Denver, he is a firefighter now, kid was 
on a Friday, he quit. Monday he went back to using it. And, you 
know, what can I tell you? Smokeless does not mean harmless.
    I don't know what my time is but I am very emotional about 
this----
    Mr. Pallone. Your time is up but we appreciate the fact 
that you----
    Mr. Garagiola. Thank you very much.
    [The prepared statement of Mr. Garagiola follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.059
    
    [GRAPHIC] [TIFF OMITTED] T6022A.060
    
    [GRAPHIC] [TIFF OMITTED] T6022A.061
    
    Mr. Pallone. No, I appreciate that you spent so many years 
dealing with this and trying to make a difference, and I know 
you are making a difference, so thanks a lot, really. I 
appreciate it.
    We will go to Dr. Connolly.

                 STATEMENT OF GREGORY CONNOLLY

    Mr. Connolly. Thank you very much. It is really hard 
playing cleanup witness to Joe Garagiola, believe me.
    I did have the opportunity to testify 25 years ago before 
Mr. Waxman on this very issue, and I think the only difference 
I can see is that at the time Mr. Waxman had no hair and I did 
have hair.
    I am a dentist. I teach at Harvard. I had the opportunity 
to work with Major League Baseball Players Association for 
spring training and conducted surveys on why they used the 
product, also did examinations of the oral cavities.
    I just want to go through with what the players risk. If I 
represented a union, I would be concerned with the health of my 
union members. The Teamsters put efforts into protecting the 
health of their union members and I think other unions in the 
United States of America should worry about their union 
members.
    [Slide shown.]
    But just turning over here, if you take the dip out you see 
something called leukoplakia. This is a grade III, and I used 
to have a game with the Blue Jays, I can guess how many dips 
you use a week game. Just by looking at these lesions, you can 
identify is it one can, two cans, three cans, four cans. And I 
remember one player said I beat you, doc. I said one can. I 
said look over here. It was two cans here and two cans here. 
The University of San Francisco screened 52 players and found 
two precancerous lesions in those white lesions, and those are 
precursors to cancer. They are present in about 50 percent of 
the players. The players tell me they want to stop, they can't 
because they are addicted and they are doing it in spite of a 
known health problem.
    [Slide shown.]
    This is another famous baseball player who spent literally 
$10,000 to treat another condition. This is where the nicotine 
and the ingredients get in and destroy the bone tissue. He had 
to have grafting, and unfortunately midlevel of the season he 
is back using again. Next slide, please.
    [Slide shown.]
    This is use rates. We monitor use rates over time, and we 
see about one-third of the players use it, minor leaguers less, 
maybe because of the ban with minor leaguers. I am really not 
sure. But this really hasn't changed. So we are still seeing 
players at risk of developing disease not during their careers 
in baseball but most likely later in baseball. And I think you 
have to protect the health of the players. That is the basic 
element here. Next set of slides, please.
    [Slide shown.]
    So then we also look at reasons why the players use it, and 
I asked them. We did a survey among 556 players and the 
respondents who were heavier users primarily used reasons for 
addiction. It was for, ``I was hooked,'' ``I was treating 
relaxation, withdrawal.'' Not one player said I used it to 
enhance my performance. Players are not proud of using this, 
and that is the reality. They wish they didn't start as Little 
Leaguers or as high school ballplayers or as minor league 
ballplayers. Next slide, please.
    [Slide shown.]
    We estimated use over time, and it has been about 9 minutes 
of game use from 1987, 1986 to 2004. It hasn't changed. What 
has changed is the use now is being concentrated by a handful 
of players. It is only one or two. The vast majority of 
baseball players do not want to be bad role models, and the 
only way one is going to deal with those one or two players, 
and I can just look at--you know, we banned advertising through 
the MSA. We banned it through the FDA Act. But all you have to 
do is pick up the front of Sports Illustrated, and fortunately 
this guy is wearing a Dodgers uniform and not a Red Sox 
uniform, to see what type of advertising reaches kids across 
America. I told the Jays, I said, you know, based on the use 
you used just in the World Series, that equals the salary of 
the entire club, and you guys are deemed to be greedy by 
Americans. The one guy got up and said I am going to call my 
agent. And it is spreading. This is Facebook. We are seeing 
dozens and dozens of groups on Facebook with high schoolers 
extolling the virtues of using smokeless tobacco products, and 
it is all related to Major League Baseball players. We see two 
groups on steroids, one opposed and one saying maybe it is OK, 
but we are seeing widespread use of adding a drug, nicotine, to 
users. Next slide, please.
    [Slide shown.]
    You know, when we take an oath as health professionals, we 
take an oath to do no harm. That is called the Hippocratic 
Oath. It is not an oath to do less harm. I want to make that 
perfectly clear. We take an oath to do no harm. We have 
medications called Nicorette that are outselling these newer 
products 1,000 to one. They are being used effectively. They 
are approved by the FDA. They increase quit rates. They double 
quit rates and they don't have cancer-causing chemicals in 
them. We have tens of thousands of baseball fields across this 
Nation and it is banned on virtually every one except 30 yet 
those 30 fields are the most important fields to the health of 
American children, only those 30. You can't dip in high school. 
We got NCAA to stop it. Major League Baseball stepped to the 
plate and stopped it, and we have a problem right now in 
America. We have a problem in America, and that is protecting 
the health of the union and letting the members do what they 
want to do and not be victimized by one or two players who 
think somehow it is glamorous to throw it in your mouth and 
look like who knows what.
    I want to thank you very much for giving me the time to 
testify, and the last time I was with Joe was at the Red Sox 
game where he announced the whole gang to me and my son. It was 
a wonderful experience. Thank you, Mr. Chairman.
    Mr. Garagiola. No spit tobacco, either.
    [The prepared statement of Mr. Connolly follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.062
    
    [GRAPHIC] [TIFF OMITTED] T6022A.063
    
    [GRAPHIC] [TIFF OMITTED] T6022A.064
    
    [GRAPHIC] [TIFF OMITTED] T6022A.065
    
    [GRAPHIC] [TIFF OMITTED] T6022A.066
    
    [GRAPHIC] [TIFF OMITTED] T6022A.067
    
    [GRAPHIC] [TIFF OMITTED] T6022A.068
    
    [GRAPHIC] [TIFF OMITTED] T6022A.069
    
    [GRAPHIC] [TIFF OMITTED] T6022A.070
    
    [GRAPHIC] [TIFF OMITTED] T6022A.071
    
    [GRAPHIC] [TIFF OMITTED] T6022A.072
    
    [GRAPHIC] [TIFF OMITTED] T6022A.073
    
    [GRAPHIC] [TIFF OMITTED] T6022A.074
    
    [GRAPHIC] [TIFF OMITTED] T6022A.075
    
    [GRAPHIC] [TIFF OMITTED] T6022A.076
    
    Mr. Pallone. Thank you, Dr. Connolly.
    We are going to take questions from the members and I am 
going to start with myself.
    I am not trying to be difficult in any way, Mr. Prouty, but 
you took a lot of time to explain that the smokeless tobacco 
was essentially banned in minor leagues but you said in major 
league it is not and you cited the fact that basically it is 
legal and so why should we be pressured or whatever, I guess, 
to ban it. But it is obvious that you ban a lot of other 
things. I guess players aren't allowed to open a beer or mix 
themselves an alcoholic drink in the dugout, and also you 
banned the smoking of cigarettes, or Major League Baseball has 
banned the smoking of cigarettes in uniform in view of the 
public. I mean, cigarettes are legal, alcohol is legal. What is 
the difference? Why is it so important to continue the use of 
smokeless tobacco but not these other things? Why is it any 
different?
    Mr. Prouty. Well, Congressman, first of all, let me say 
that there is a difference between cigarette smoking and 
smokeless tobacco insofar as smoking affects the game. You 
can't smoke while you are playing. Cigarette smoking also has 
secondhand effects on other players. But I don't think we are 
here today to defend smokeless tobacco. What we are saying is 
that it is a legal product and it is legal in the United States 
for use. If you want to go about banning it, Congress should go 
about banning it.
    Mr. Pallone. No, I understand that, but I guess what I am 
saying is that is just seems strange to me. I guess when you 
negotiate a collective bargaining agreement, why is there not 
an effort to say pursuant to the collective bargaining 
agreement that smokeless tobacco would be banned as well? I 
guess I am asking from the point of view of the players as well 
as from the point of view of the union. It doesn't make sense 
to me that you would have a lot of--that you wouldn't press to 
do the same thing. Is this coming from the players? Are they 
demanding that it not be prohibited? What is the reason?
    Mr. Prouty. Well, you know, in any organization, there are 
varying views. We have people who are all for using smokeless 
tobacco. We have people who are against it. We have a round of 
collective bargaining negotiations coming up. We can only look 
forward on this. We are just beginning to formulate our 
proposals on all kinds of issue. I am not the union. We 
represent the players. The players will get together and decide 
what issues to bring to bargaining. Mr. Manfred's side will get 
together and decide what issues they want to bring to 
bargaining. As he said, smokeless tobacco is a mandatory issue 
so if either side brings it up, we have got to talk about it. 
We hear what you are saying. We will take the concerns of 
everyone here back to the players. It is for the players to 
make a decision about what to go ahead and bring to the 
bargaining table, but rest assured, I will make sure based on 
the hearing today that they hear what you are saying.
    Mr. Pallone. I appreciate that. And then I wanted to ask 
Mr. Von Behrens, and again, I appreciate your being here today. 
When you said that you reached over 2 million kids in the 
course of your speeches and presentations, that is really 
amazing. But I wanted to go back. You mentioned when you first 
started using tobacco. How much did your decision to start and 
use correlate with your passion for baseball, which actually 
you have, and do you think if you had known more about the 
health effects when you were a young person you still would 
have used it?
    Mr. Von Behrens. You know, I tell kids every day that if 
somebody like myself would have came and spoke to their school 
or my school whenever I was a young man, there is no way I 
would be sitting in front of you guys here today because I 
would have made an educated choice and I would have stopped 
using. This would have scared me enough into not using these 
products. You know, baseball had, like I said, marginal effects 
of why I used tobacco, guys. We are sitting here today and we 
are talking about baseball and spit tobacco, baseball and spit 
tobacco, and yes, I believe that they should not be able to use 
it on the field. It is like smoking a cigarette on the field. I 
am not going to get into that because that is not the type of 
person that I am.
    But there are so many other things that we are overlooking. 
I am a competitive bass fisherman. I fish all over the Midwest. 
There are boats out there selling ads. They are boats 
advertising Longhorn tobacco. The guy who got second place in 
the Bassmasters last year fished out of a boat sponsored by 
Longhorn tobacco products. So there are so many other forms and 
there is a lot more of these types of people out there than 
there are potential baseball players. There is more hunters, 
there is more fisherman, there is more farmers, kids, people 
who aren't really that associated with baseball that are being 
affected by the advertisements and the ploy that tobacco is a 
safer alternative to cigarettes.
    Mr. Pallone. But you are convinced that if we had more 
education and awareness, a lot of these young people would not 
start using it?
    Mr. Von Behrens. Definitely. You know, it irritates me when 
we talk about education because there is so many budgets cut 
that are in effect across the United States. There is people 
out there fighting to do their jobs to prevent you from using 
these products. They can't even do their job anymore because 
somebody wanted to build a road with the money donated to them 
from the master settlement agreement. So we need to first make 
sure that the master settlement agreement money goes into 
education. That is what it is meant to be used for, not to fix 
the roads, not to get somebody out of trouble, to educate 
youth. And if we educate youth, I think in the long term we 
will see our health and our financial well being get better. I 
spent almost $3 million in medical expenses from what this 
product did to me, 3 million bucks to have surgeries, to have 
radiation treatment, to lay in the hospital for two months at a 
time, $3 million. I don't know of one person who spent $3 
million or how much taxation you will make off of one person in 
their lifetime selling this product. It is a very harmful drug 
and we just need to put guidelines in and make it better and 
make kids understand what it can do to them.
    Mr. Pallone. Thank you.
    Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Von Behrens, you have made Illinois proud.
    Mr. Von Behrens. Thank you.
    Mr. Shimkus. I appreciate you coming, and Mr. Garagiola, of 
course, you made St. Louis proud.
    Mr. Garagiola. Before you start, I have this DVD. It is the 
best piece of equipment I have to talk to people. It is all 
about Gruen and nobody else, and he talks to high school kids, 
and the Diamondbacks were good enough to make sure that it was 
distributed and the schools got it. Gruen was great, and I wish 
you could see the effect he had on the young people because 
when he walked out there, there was a collective ``huh'' and 
then he started, and boys, he knocked their socks off. I will 
never forget that, Gruen.
    Mr. Von Behrens. You know, I was----
    Mr. Pallone. Would the gentleman yield? And I am not going 
to take away your time. I will give you more time. What I was 
going to suggest, Mr. Garagiola, is that you have or can get us 
extra copies of that, we will circulate them to the members of 
the committee.
    Mr. Garagiola. You tell me how many you want.
    Mr. Pallone. We will get back to you. And also I don't know 
if there is a transcript of it. We could enter that in the 
record. But we will look into that, all right?
    Mr. Garagiola. I will tell you what. I am going to give you 
that and the Bob Leslie tape when I ask Bob Leslie what is the 
toughest part of the day.
    Mr. Pallone. OK. Thanks.
    Mr. Shimkus. And let me just follow up on that. You did 
talk about the No Chew Crew program with Arizona. Has that been 
accepted or replicated in any other ballpark organizations and 
stuff?
    Mr. Garagiola. I have been frustrated a lot. I am going to 
answer that question as honestly as I can. Only one other club 
called the Diamondbacks and said tell us more about it. That 
was the Marlins. And nobody else. This booklet, I want to give 
it to the little guys because I thought they could read it 
because it is a tobacco message but they could also color it, 
and Commissioner Selig, he gave me $50,000 to make the 
distribution. One club, and I don't want to embarrass them, the 
girl says I am going to throw them away because we don't have 
any room to store them. I said no, you are not going to throw 
them away. I called the president of the club and we got them 
distributed. No, it was met with industrial-strength apathy.
    Mr. Shimkus. Dr. Connolly, when you talk about the 
addictions, I believe there are social kind of addictions, peer 
pressure. Are you making a determination because social kind of 
addictions and peer pressures or the physical addiction?
    Mr. Connolly. Well, I think we have to understand that you 
have two different dosing mechanisms for nicotine. The 
cigarette, you get a rapid dose of nicotine and it falls off 
and sets a spike effect. It is very, very attractive because it 
is reinforcing and it has central nervous system effects. With 
smokeless, it is a slow effusion across the oral cavity, about 
20 cell layers, and you get a general background dose. And then 
with a product like Copenhagen, you get a bolus of nicotine 
into the central nervous system. So it is a chemical addiction. 
The Surgeon General described it as such. And then we look at 
quitting patterns. We find it is about the same. It is equally 
hard for smokeless tobacco users and cigarette smokers to quit. 
They are about the same because they are dealing with a 
chemical addiction. Finally, what is disturbing is the increase 
in dual use that we are seeing in the American public, people 
using cigarettes and using smokeless, and what we may be 
observing is the emergence of dual dependency, someone being 
dependent upon cocaine and heroin at the same time. It is 
extremely hard because of the difference in dosing to treat 
dual dependency. This is a major concern that we have for the 
Nation is that young people seem to be using both now in 
particular parts of the country and it is going to be harder, I 
believe, to treat those dependencies.
    Let me point out too, the players association has to step 
up to the plate here. I mean, we have to----
    Mr. Shimkus. My time is----
    Mr. Connolly. I am sorry.
    Mr. Shimkus. I am going to address that, and we have been 
here a long time already, but I do think my colleague from 
Maryland, it does make sense if you have got an asset as the 
players' union does and as Major League Baseball does to 
protect the asset. I am a Republican. We believe in competitive 
markets. We want to protect collective bargaining and we want 
you all to work it out. I am not one to want government to 
intervene with a national law to say--because if we ban tobacco 
products, then we would have the underground economy, we would 
have the products just like we have illegal drugs, et cetera, 
et cetera. But it is always better, gang, if you do this and 
work this out, and I think you hear collective agreement by the 
panel that we would hope that in the next round you all would 
step up and lead by example and then you wouldn't be called 
back up here anymore for this issue.
    Mr. Connolly.
    Mr. Shimkus. Yes, sir.
    Mr. Connolly. There is no silver bullet here. We need 
education for the kids, education for the players. We need 
treatment for those players. We need counseling. But we also 
need policies. You can't say one is going to work without the 
other. It is a combination of efforts.
    Mr. Shimkus. Well, and Mr. Von Behrens mentioned the 
family, and leadership is not just professional sports. It is 
family. I caught in the hot summers of St. Louis and my parents 
gave me salt tablets because of sweating, and that was what was 
thought at the time.
    We do appreciate your time and effort, and Mr. Chairman, I 
will yield back.
    Mr. Pallone. Thank you.
    Chairman Waxman.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    As I understand the situation, if Major League Baseball 
wanted to ban the use of smokeless tobacco or cigarettes, they 
can just go ahead and do it when it comes to the minor leagues, 
but when it comes to the major leagues, they can't just go 
ahead and do it because you have to have a collective 
bargaining. The union represents the players in the major 
leagues but not in the minor leagues. Is that right, Mr. 
Prouty?
    Mr. Prouty. Yes, that is correct.
    Mr. Waxman. So the only way you would get to talk about the 
major leagues would be through collective bargaining agreement?
    Mr. Prouty. That is correct. It is a mandatory subject of 
bargaining.
    Mr. Waxman. So you have to bargain this question out and 
have it as part of your contract.
    Mr. Prouty or Mr. Manfred, do either of you disagree with 
the harm that comes to the players after all the testimony you 
have heard today from the use of smokeless tobacco?
    Mr. Prouty. No, Congressman, we don't disagree at all.
    Mr. Waxman. And Mr. Manfred, you don't disagree, do you?
    Mr. Manfred. No. As a matter of fact, we put extensive 
effort into trying to encourage our players at all levels, 
minor and major league, to not use smokeless tobacco.
    Mr. Waxman. Do either of you disagree with the idea that 
children, young people are influenced by seeing behavior of 
players on the field? Mr. Manfred?
    Mr. Manfred. No, I don't.
    Mr. Prouty. No, we don't disagree. Players are role models. 
We don't dispute that.
    Mr. Waxman. So then the question is, if there are health 
risks to the users and there is a problem in the message that 
is sent to the kids, you seem to both agree with that. Wouldn't 
you both be in favor of agreeing to not allow players to be 
using smokeless tobacco on the field?
    Mr. Prouty. Congressman Waxman, it is not as simple as Mr. 
Manfred and me just agreeing. We both represent constituencies. 
The union is a democratic organization. We have to go back to 
our members. We have to hear what----
    Mr. Waxman. I understand that. What would be the argument 
against it?
    Mr. Prouty. The argument against it is that it is a legal 
substance which can be used in this country.
    Mr. Waxman. So are cigarettes.
    Mr. Prouty. So are cigarettes.
    Mr. Waxman. Your members don't want to reopen that issue, 
do they?
    Mr. Prouty. No, they don't.
    Mr. Waxman. So you have two legal products. No one is 
disputing that. How about drinking beer or other alcoholic 
beverages? It is perfectly legal, may or may not be harmful, 
depending on the circumstance. Do any of your players think 
that they ought to be allowed to drink on the field?
    Mr. Prouty. No, they don't. I don't believe so.
    Mr. Waxman. So I am trying to understand an argument they 
might make on smokeless tobacco. If it hurts the health of the 
players and it influences adversely kids to use a product that 
is going to harm their health, I would hope you would take back 
to your members that they shouldn't stand in the way of what 
Major League Baseball did when it came to the minor leagues and 
put in the same policy for the major leagues.
    Mr. Prouty. Absolutely, Congressman. You can be assured we 
will take back the concerns that we have heard here today and 
the players will continue that along with all the other issues 
and we will bring it up in the next round of bargaining if that 
is what they decide to do. It is a democratic organization. I 
can't promise you here today it will be brought up. I can 
promise you that I will bring back and make them understand as 
we did with steroids and other issues you are aware of exactly 
what Congress feels about this.
    Mr. Waxman. What if your players said to you I don't want 
to have a ban on steroid use because we think it helps us 
improve our performance? Would the players advance the argument 
in the collective bargaining agreement that there shouldn't be 
any ban on performance-enhancing drugs?
    Mr. Prouty. Congressman, that is not where we are. As you 
know, we went through a series of----
    Mr. Waxman. I remember. I remember it well. I am just 
obviously pointing out the illogic.
    Mr. Prouty. But, no, I understand that. But if you 
remember, the process that we went through every time was, we 
went back and held meetings with players and developed a 
consensus about this is what has got to happen, these are the 
risks, this is the testing program and frankly, if we don't 
act, Congress is going to act but we would rather settle it by 
collective bargaining. In the end, that is what we did was 
settle it by collective bargaining, and you endorsed what came 
out of that.
    Mr. Waxman. Let me ask you if you will be willing to start 
this process of consultation with your members now so you can 
be ready with a consensus position to allow this to be part of 
the collective bargaining when your contract is next up.
    Mr. Prouty. Yes, we will, as I said before, bring this back 
to the membership and start consulting.
    Mr. Waxman. Good.
    Thank you very much, Mr. Chairman. I appreciate everybody's 
testimony today.
    Mr. Pallone. Thank you, Chairman Waxman.
    The gentleman from Indiana, Mr. Buyer.
    Mr. Buyer. Thank you very much.
    I want to agree with the comment, educate, educate, 
educate. I think you are right. And in a free society, I 
believe there are always going to be differences of opinions 
based on differing values, beliefs, perceptions and also due to 
the imperfections of reason. So in the effort to educate, 
educate, educate, we also have to nourish the hope that how do 
we achieve improvements to public health. Now, when you make 
that effort, you cannot ignore science. Now, what was 
challenging from the first panel was to have an individual who 
would not acknowledge that there is a continuum of risk among 
tobacco products. Now, I don't smoke. I don't advocate for 
people to smoke. I also recognize that it is a lawful adult 
product and that it is a product that we don't want in the 
hands of children. So I also acknowledge as a worthy effort to 
prevent role models from using such a product and what can we 
do to make sure that children don't gain access.
    Well, you know, we have done a lot of things. Not only have 
we made it illegal for individuals under the age of 18 to gain 
access to these products, but you know what? The master 
settlement agreement. I am surprised by the advocates of this 
panel that you haven't talked about the master settlement 
agreement and the fact that the States out there are not 
utilizing monies collected not only from the MSA but also from 
cigarette taxes to be spent on education programs. So in fiscal 
year 2010 alone, and this is according to the document that I 
have now submitted to the record titled A Broken Promise to Our 
Children. It states that in the current fiscal year 2010, 
States will collect $25.1 billion from the tobacco settlement 
and tobacco taxes and they will spent just 2.3 percent of it, 
which is approximately $560 million, on tobacco prevention and 
cessation programs. Now, when we passed Mr. Waxman's bill, I 
had offered an amendment. I had offered an amendment for us as 
a Nation to improve public health to acknowledge the continuum 
of risk and is it possible to migrate people from smoking to 
smokeless to finally quitting. Is that possible? When in fact 
there is a crucible out there for which we can look at, which 
is called the Swedish experiment. Incorporated in that 
amendment was also the advocacy on behalf of Ms. Blackburn to 
actually state that, you know, States, you should be required 
to spend a portion on education, a portion of the MSA. That was 
defeated. That effort was defeated here on the committee and it 
should not have been. Because those of whom will acknowledge 
and actually say that smoking a cigarette is just as bad as 
utilizing a smokeless tobacco product ignores science. Because 
there is truly a difference in the continuum of risk.
    Now, I don't advocate the use of either of those products 
but to say that a snus product that eliminates 99 percent of 
the nitrosamines and you have got a 1 percent of health risk 
versus the 100 percent from a cigar ignores science. And so it 
is challenging for me because I look at this and say I agree 
with the testimony of educate, educate, educate but why would 
the advocates of abstinence then not be willing to educate 
tobacco users that there truly is an opportunity to lessen the 
risk, that if you can reduce the thousands of constituents and 
toxins from smoking to move to smokeless, that that in fact can 
make your healthier. But the complete goal here is actual 
cessation of the tobacco product. To ignore that is also then 
to ignore science and ignore the advocacy to educate, educate, 
educate. A nation cannot be ignorant sustain freedom. So as a 
government when you ask government for its help and assistance, 
we as a government need to be honest with regard to is our 
advocacy with regard to availability of tobacco products. Now, 
for those of whom are advocating abstinence, if you want to 
advocate the complete outlawing of tobacco products, go ahead 
and say that if that is what the advocacy is. But that is not 
what this committee has chosen to do. It is not as a country 
what we have chosen to do.
    So I just--I want to thank all of you for your efforts. It 
is unfortunate with regard to Major League Baseball and the 
players' union that my sensing is that you have been brought 
here to testify and the committee is somehow strong-arming you 
with regard to what should occur or not occur within collective 
bargaining. I think that is wrong if we are going to actually 
say that the marketplace is a sacred place. And so that is 
unfortunate. You can choose to do what you believe is morally 
right, and I believe that you have that sense and that can 
happen at the table, but for us to strong-arm you and to 
dictate as to what you should and shouldn't do and supplant our 
moral understanding upon you, wow, if that is what we want to 
do, then we should have made tobacco products illegal instead 
of passing that bill.
    With that, I yield back.
    Mr. Connolly. Could I just comment?
    Mr. Pallone. I think we should probably let them respond if 
they want.
    Mr. Buyer. I did not ask a question. I yielded back. I made 
a statement.
    Mr. Connolly. As a person----
    Mr. Pallone. He has yielded back, Dr. Connolly.
    Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and mine is more 
of a statement than a question. I do appreciate that all of you 
are here, and Mr. Buyer mentioned some of the frustration that 
we have with this issue. As I said in my opening statement and 
in my questions, in the 110th Congress, in the 111th Congress, 
there was an opportunity to expand SINAR and to take care, 
special care, extra care to address this issue of teens and 
smoking.
    Now, I was interested in the testimony of a couple of you, 
Mr. Manfred, in your testimony, and Mr. Garagiola, in yours. 
You talk about education and the importance of education, and 
why this needs to be expanded, and I liked the example of the 
No Chew Crew.
    Mr. Garagiola. But you need money.
    Mrs. Blackburn. OK. Then is this a program that would 
function well with some of the master settlement dollars? Have 
you looked at that? Are you seeking to move forward with 
expanding that program through the--the money is there. I mean, 
that is----
    Mr. Garagiola. The money is there but I think it is--I have 
a clipping that I have saved. This is from 2001. In North 
Dakota, legislators have been criticized for considering using 
a portion of the settlement money to built a state morgue. In 
Alabama, legislators allocated a portion of the settlement to 
fight gangs and satanic worship in public schools. In Montana, 
officials funded a juvenile delinquent boot camp. Tobacco-
growing States like North Carolina, South Carolina, Virginia, 
funds have been set aside to compensate tobacco farmers for 
losing crop revenues as smoking declines. The problem comes 
when you call these people. Mike Moore, the attorney general 
from Mississippi, we thought we had the money, and when you 
call the line is busy, they will get back to you. I am still 
waiting for calls from some of these guys.
    Mrs. Blackburn. Well, and the legislation I have brought 
before this body that action was not taken on would have 
addressed the usage of some of these master settlement funds 
and would have required the States to meet certain expanded 
criteria. There is a way to address this.
    Mr. Manfred, I think you had a couple of thoughts, and I do 
appreciate your testimony, and when you talked about the minor 
league policy that is there on smoking and tobacco products and 
the compliance rates on that, and I wanted to know if the 
smoking cessation counseling programs that are provided by the 
clubs' employee assistance personnel, to what extent that has 
been successful and if you all are doing outreach specifically 
geared toward children.
    Mr. Manfred. Let me start with the employee assistance 
programs. I think when you talk to our employee assistance 
professionals as a group, the 30 of them, we get them together 
twice a year, and I think that in all candor, they feel that 
they have very good programs. They feel that they have a 
moderate degree of success, and the single biggest frustration 
that you hear from them is, people go through the programs, 
they do well, they stop and then they return to use. You know, 
if I had to summarize what our very long discussions with this 
group, that is how I would summarize it.
    In terms of outreach, Major League Baseball has been 
committed to the NSTEP undertaking for years and years. I think 
Mr. Garagiola referred to the fact that Commissioner Selig 
allocated $50,000 recently for a specifically child-directed 
program. He is holding up the pamphlets from that program. 
Commissioner Selig himself sees this as a public health issue, 
and I think that it is fair to say that our efforts in this 
regard both internally and externally will continue.
    Mrs. Blackburn. I appreciate that.
    I will just close by saying from our perspective, there has 
been an opportunity to address this. We have legislation. The 
SINAR language has worked. We don't need to reinvent the wheel. 
The goal is to make certain that children are educated and 
realize the dangers of tobacco use. As a mom, as a former Lung 
Associate volunteer, as the former president of that board, the 
education programs have been vitally important and that is how 
we are going to change this, and there does exist an avenue for 
that and I think it is regretful that this committee did not 
take up the opportunity to address that and I would have 
preferred out time today be spent on some other components that 
addressing some things in the health care bill that need to be 
done or addressing getting a federal budget together which I am 
understanding the Democrat leadership in this body does not 
want to do.
    With that, I yield back.
    Mr. Pallone. Thank you.
    There are only a few of us left so we are just going to 
have a second round for whoever wants to ask questions, and I 
am going to yield myself some time.
    I asked Mr. Prouty before about a commitment to bring this 
up, and I think Mr. Waxman did also, to bring up the issue of 
smokeless tobacco in the context of collective bargaining 
agreement, and I just wanted to ask Mr. Manfred the same thing, 
if you would be willing to say that you would make the issue of 
smokeless tobacco a priority when you negotiate with the 
players over collective bargaining? Would you and the 
commissioner fight to try to end the use of smokeless tobacco 
by major league players? I mean, I know that you don't have--
you know, a lot of this depends on what happens but we are 
still trying to at least get you and Major League Baseball to 
say look, we will try to make this a priority, we will bring it 
up, we are committed to putting an end to it in the same way 
you have with the minor leagues.
    Mr. Manfred. We have begun our preparations for 2011 
already. I think that Commissioner Selig's directive that Dr. 
Shaha make a presentation to the safety and health committee is 
indicative of his commitment to the idea that this issue needs 
to be addressed in 2011. I can also tell you that in our 
conversations with individual teams, we have had a number of 
teams raise this issue as something that we need to be putting 
on the table in 2011.
    Mr. Pallone. But can you just go beyond that and say that 
it is a priority for that purpose?
    Mr. Manfred. I can say--certainly I can say this, that for 
Commissioner Selig it is a priority in terms of the issues that 
we have discussed so far. I think that is an accurate 
statement.
    Mr. Pallone. I appreciate that.
    I am going to yield back and ask Mr. Shimkus if he would 
like to say anything or ask any more questions.
    Mr. Shimkus. No, I just appreciate the panelists. I think 
my colleague, Congresswoman Blackburn, makes a good point, and 
I would request that maybe the full committee chairman bring in 
the States and ask them to use their master settlement money on 
the tobacco to print your brochures, to print the DVDs and get 
them in all the schools across the country. That might be a 
good use of that instead of some of the other things that Mr. 
Garagiola highlighted in that old article. I mean, if we are 
serious about educating, we ought to be about the business of 
educating, and I appreciate those who are doing their part with 
their own ability, but again, I think government has dropped 
the ball on some of these aspects, and I yield back my time.
    Mr. Pallone. Mr. Buyer, no additional questions? OK.
    Let me thank all of you, really. I thought that his was 
very worthwhile today. It is obviously an issue that Mr. Waxman 
in particular but many members of the committee have cared 
about for a long time, and I also appreciate the fact that some 
of you are willing to take it back with the major leagues and 
try to address it. I think it is very important to us, so thank 
you very much.
    The way we operate is that you may get additional written 
questions within the next 10 days or so that we would also ask 
you to respond to as quickly as possible.
    Thank you. And with that, the subcommittee hearing is 
adjourned.
    [Whereupon, at 1:28 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T6022A.077
    
    [GRAPHIC] [TIFF OMITTED] T6022A.078
    
    [GRAPHIC] [TIFF OMITTED] T6022A.079
    
    [GRAPHIC] [TIFF OMITTED] T6022A.080
    
    [GRAPHIC] [TIFF OMITTED] T6022A.081
    
    [GRAPHIC] [TIFF OMITTED] T6022A.082
    
    [GRAPHIC] [TIFF OMITTED] T6022A.083
    
    [GRAPHIC] [TIFF OMITTED] T6022A.084
    
    [GRAPHIC] [TIFF OMITTED] T6022A.085
    
    [GRAPHIC] [TIFF OMITTED] T6022A.086
    
    [GRAPHIC] [TIFF OMITTED] T6022A.087
    
    [GRAPHIC] [TIFF OMITTED] T6022A.088
    
    [GRAPHIC] [TIFF OMITTED] T6022A.089
    
    [GRAPHIC] [TIFF OMITTED] T6022A.090
    
    [GRAPHIC] [TIFF OMITTED] T6022A.091
    
    [GRAPHIC] [TIFF OMITTED] T6022A.092
    
    [GRAPHIC] [TIFF OMITTED] T6022A.093
    
    [GRAPHIC] [TIFF OMITTED] T6022A.094
    
    [GRAPHIC] [TIFF OMITTED] T6022A.095
    
    [GRAPHIC] [TIFF OMITTED] T6022A.096
    
    [GRAPHIC] [TIFF OMITTED] T6022A.097
    
    [GRAPHIC] [TIFF OMITTED] T6022A.098
    
    [GRAPHIC] [TIFF OMITTED] T6022A.099
    
    [GRAPHIC] [TIFF OMITTED] T6022A.100
    
    [GRAPHIC] [TIFF OMITTED] T6022A.101
    
    [GRAPHIC] [TIFF OMITTED] T6022A.102
    
    [GRAPHIC] [TIFF OMITTED] T6022A.103
    
    [GRAPHIC] [TIFF OMITTED] T6022A.104
    
    [GRAPHIC] [TIFF OMITTED] T6022A.105
    
    [GRAPHIC] [TIFF OMITTED] T6022A.106
    
    [GRAPHIC] [TIFF OMITTED] T6022A.107
    
    [GRAPHIC] [TIFF OMITTED] T6022A.108
    
    [GRAPHIC] [TIFF OMITTED] T6022A.109
    
    [GRAPHIC] [TIFF OMITTED] T6022A.110
    
    [GRAPHIC] [TIFF OMITTED] T6022A.111
    
    [GRAPHIC] [TIFF OMITTED] T6022A.112
    
    [GRAPHIC] [TIFF OMITTED] T6022A.113
    
    [GRAPHIC] [TIFF OMITTED] T6022A.114
    
    [GRAPHIC] [TIFF OMITTED] T6022A.115
    
    [GRAPHIC] [TIFF OMITTED] T6022A.116
    
    [GRAPHIC] [TIFF OMITTED] T6022A.117
    
    [GRAPHIC] [TIFF OMITTED] T6022A.118
    
    [GRAPHIC] [TIFF OMITTED] T6022A.119
    
    [GRAPHIC] [TIFF OMITTED] T6022A.120
    
    [GRAPHIC] [TIFF OMITTED] T6022A.121
    
    [GRAPHIC] [TIFF OMITTED] T6022A.122
    
    [GRAPHIC] [TIFF OMITTED] T6022A.123
    
    [GRAPHIC] [TIFF OMITTED] T6022A.124
    
    [GRAPHIC] [TIFF OMITTED] T6022A.125
    
    [GRAPHIC] [TIFF OMITTED] T6022A.126
    
    [GRAPHIC] [TIFF OMITTED] T6022A.127
    
    [GRAPHIC] [TIFF OMITTED] T6022A.128
    
    [GRAPHIC] [TIFF OMITTED] T6022A.129
    
    [GRAPHIC] [TIFF OMITTED] T6022A.130
    
    [GRAPHIC] [TIFF OMITTED] T6022A.131
    
    [GRAPHIC] [TIFF OMITTED] T6022A.132
    
    [GRAPHIC] [TIFF OMITTED] T6022A.133
    
    [GRAPHIC] [TIFF OMITTED] T6022A.134
    
    [GRAPHIC] [TIFF OMITTED] T6022A.135
    
    [GRAPHIC] [TIFF OMITTED] T6022A.136
    
    [GRAPHIC] [TIFF OMITTED] T6022A.137
    
    [GRAPHIC] [TIFF OMITTED] T6022A.138
    
    [GRAPHIC] [TIFF OMITTED] T6022A.139
    
    [GRAPHIC] [TIFF OMITTED] T6022A.140
    
    [GRAPHIC] [TIFF OMITTED] T6022A.141
    
    [GRAPHIC] [TIFF OMITTED] T6022A.142
    
    [GRAPHIC] [TIFF OMITTED] T6022A.143
    
    [GRAPHIC] [TIFF OMITTED] T6022A.144
    
    [GRAPHIC] [TIFF OMITTED] T6022A.145
    
    [GRAPHIC] [TIFF OMITTED] T6022A.146
    
    [GRAPHIC] [TIFF OMITTED] T6022A.147
    
    [GRAPHIC] [TIFF OMITTED] T6022A.148
    
    [GRAPHIC] [TIFF OMITTED] T6022A.149
    
    [GRAPHIC] [TIFF OMITTED] T6022A.150
    
    [GRAPHIC] [TIFF OMITTED] T6022A.151
    
    [GRAPHIC] [TIFF OMITTED] T6022A.152
    
    [GRAPHIC] [TIFF OMITTED] T6022A.153
    
    [GRAPHIC] [TIFF OMITTED] T6022A.154
    
    [GRAPHIC] [TIFF OMITTED] T6022A.155
    
    [GRAPHIC] [TIFF OMITTED] T6022A.156
    
    [GRAPHIC] [TIFF OMITTED] T6022A.157
    
    [GRAPHIC] [TIFF OMITTED] T6022A.158
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
